<html>
<title> - UNITED STATES DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                UNITED STATES DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              JUNE 7, 2012

                               ----------                              

                           Serial No. 112-152

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.govFOR 


                               SPINE deg.
                  UNITED STATES DEPARTMENT OF JUSTICE




                  UNITED STATES DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2012

                               __________

                           Serial No. 112-152

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-504                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 7, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Eric H. Holder, Jr., Attorney General, U.S. 
  Department of Justice
  Oral Testimony.................................................     4
  Prepared Statement.............................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Member, Committee on the Judiciary.............................    27
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    41
Material submitted by the Honorable Robert C. ``Bobby'' Scott, a 
  Representative in Congress from the State of Virginia, and 
  Member, Committee on the Judiciary.............................   141
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   149
Material submitted by the Honorable Darrell Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   247
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Member, Committee on the Judiciary.........................   426
Material submitted by the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   465

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Darrell Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   473
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Member, Committee on the Judiciary.........................   513
Post-Hearing Questions submitted to the Honorable Eric H. Holder, 
  Jr., Attorney General, U.S. Department of Justice..............   515


                  UNITED STATES DEPARTMENT OF JUSTICE

                              ----------                              


                         THURSDAY, JUNE 7, 2012

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:39 a.m., in room 
2141, Rayburn House Office Building, the Honorable Lamar Smith 
(Chairman of the Committee) presiding.
    Present: Representatives Smith, Sensenbrenner, Gallegly, 
Goodlatte, Lungren, Chabot, Issa, Forbes, King, Franks, 
Gohmert, Jordan, Poe, Chaffetz, Griffin, Marino, Gowdy, Ross, 
Adams, Quayle, Conyers, Berman, Nadler, Scott, Watt, Lofgren, 
Jackson Lee, Waters, Cohen, Johnson, Pierluisi, Quigley, Chu, 
Deutch and Sanchez.
    Staff Present: (Majority) Travis Norton, Counsel; Holt 
Lackey, Counsel; (Minority) Perry Apelbaum, Staff Director and 
Chief Counsel; Danielle Brown, Counsel; and Aaron Hiller, 
Counsel.
    Mr. Smith. The Judiciary Committee will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the Committee at any time.
    I will recognize myself and then the Ranking Member for an 
opening statement.
    Welcome, Attorney General Holder, to today's oversight 
hearing of the Department of Justice.
    Regrettably the Obama administration has shown a disregard 
for the Constitution and rule of law in an effort to impose 
their agenda on the American people, and there are many 
examples. Efforts to block congressional inquiries about the 
Administration's actions undermine the balance of power on 
which our Nation is founded.
    The Department of Justice still has not provided enough 
information about Operation Fast and Furious so that the 
American public and Congress can judge who in the Department 
bears responsibility for the decisions that led to Agent Brian 
Terry's death. The Justice Department refuses to comply with 
Congressional subpoenas that may shed light on why this program 
was authorized and who had knowledge of the inappropriate 
tactics.
    The Department of Justice also has failed to provide 
relevant information that would have revealed the extent of 
Justice Kagan's involvement in the development of the 
Affordable Care Act when she was Solicitor General. If she did 
give counsel on the healthcare bill, which was her job, then 
she should recuse herself rather than evaluating the law as a 
member of the Supreme Court. The Justice Department has refused 
to let us interview her former assistants.
    Neglecting to enforce or defend the law as enacted by 
Congress is another violation of the Administration's 
constitutional obligation to the American people. Under this 
President, the Justice Department has engaged in a pattern of 
selective enforcement of the law in order to advance its own 
partisan agenda. For instance, the Obama administration has 
sought to prevent State and local authorities from enforcing 
immigration laws. At the same time, the Justice Department has 
refused to bring cases against sanctuary cities that violate 
Federal law by prohibiting their officials from communicating 
with the Department of Homeland Security about illegal 
immigrants they encounter. Such sanctuary cities directly 
challenge the Federal Government's authority to enforce 
immigration laws. The Administration's unwillingness to uphold 
immigration laws has led to injuries and even death.
    The Administration refuses to defend the Defense of 
Marriage Act, a law enacted by Congress and signed by then-
President Bill Clinton. This was a significant piece of 
legislation that was approved by a vote of 342 to 67 in the 
House and 85 to 14 in the Senate. Regardless of how one feels 
about the substance of the bill, the Department of Justice has 
an obligation to defend the laws of the land.
    Efforts by the Administration to override election laws 
enacted by States also raise constitutional concerns. Instead 
of acting to prevent voter fraud, the Department of Justice has 
challenged common-sense voter ID laws that require voters to 
identify themselves before they are allowed to vote. The 
Department of Justice recently moved to block implementation of 
voter ID laws enacted by legislatures in Texas and South 
Carolina. The Texas proposal was based on a similar law passed 
by the Indiana Legislature which was upheld by the Supreme 
Court in 2008. The Justice Department's challenge to the law 
ignores Supreme Court precedent that affirms a State's right to 
enact laws to protect the integrity of its elections.
    The Department of Justice even threatened to sue Florida 
for trying to remove ineligible non-citizens from its voter 
rolls. Why would the Department of Justice not want States to 
remove ineligible felons, ineligible non-citizens and the dead 
from their voter rolls? The Administration's actions aren't 
just wrong, they are arrogant, undemocratic and an insult to 
the rule of law.
    The Administration's disregard for the Constitution and 
rule of law not only undermines our democracy, it threatens our 
national security. The Justice Department has not taken the 
initiative to prosecute leaks of national security secrets. 
Recent leaks about a foiled bomb plot out of Yemen and a 
cyberattack against Iran are, in the words of Senate 
Intelligence Chairwoman Dianne Feinstein, quote, ``very 
detrimental, very concerning, and hurt our country,'' end 
quote.
    The past 3\1/2\ years, this Administration has engaged in a 
pattern of obstructionism, unaccountability and partisanship. 
The American people should have confidence that the Department 
of Justice fairly enforces laws. That confidence is lacking 
today. This hearing will explore how that confidence can be 
restored.
    That concludes my opening statement, and the gentleman from 
Michigan, the Ranking Member of the Judiciary Committee, is 
recognized for his.
    Mr. Conyers. Thank you, Chairman Smith.
    And welcome, Attorney General Holder.
    The opening statement is an opportunity for both of us here 
to set the tone for this hearing, but never in the career of 
Chairman Smith as the Chair of this Committee have I heard so 
many erroneous statements, and having never heard them before, 
I can assure him and you that I will be going over his 
statements and help him arrive at a more factual and impartial 
conclusion.
    Now, having said that, we welcome you once again to the 
House Judiciary Committee. This, by my count, is the eighth 
time this Congress that the Attorney General has made himself 
available for questioning, and this level of access is 
extraordinary, particularly when we compare your record to that 
of your immediate predecessor.
    Now, with respect to the continuing investigation into 
Operation Fast and Furious, I want to thank you for your 
patience and diligence. To date, the Department of Justice has 
provided over 7,600 pages of documents to the Congress. You 
made additional law enforcement-sensitive materials available 
to us in dozens of briefings. You have permitted us to question 
senior Department officials in hearing and in transcribed 
interviews. And you yourself have appeared before this 
Committee once every 6 months since the controversy became 
public. I hope that the tone of today's discussion reflects the 
many courtesies that you and the Department of Justice have 
shown us in the past months.
    And I also want to commend you and the Department of 
Justice on a series of important accomplishments in the field 
of civil rights and voting rights, a couple of issues that I 
have paid special attention since I first became a Member of 
the House Judiciary Committee.
    Enforcing section 5 of the Voting Rights Act. The 
Department has aggressively enforced section 5, which ensures 
that States with a history of discrimination can't create 
additional barriers to minority access to the ballot box. The 
Department has already blocked discriminatory voter IDs laws in 
Texas and South Carolina, and I would encourage you to look at 
other similar troubling laws taking effect across the country.
    Stopping illegal purges of the voting rolls. Last week the 
Voting Section wrote to the State of Florida demanding that 
they cease and desist from purging voters from the rolls. The 
practice was not submitted to the Department under section 5 
and would not have been approved if it had been.
    Protecting the rights of members of the armed services in 
terms of their voting. The Department has secured court orders 
and consent decrees in 14 jurisdictions to better enforce the 
Military and Overseas Voter Empowerment Act, MOVE.
    Restoring the integrity of the Civil Rights Division. After 
the Office of the Inspector General and the Office of 
Professional Responsibility completed their review of illegal, 
partisan hiring practices under another Administration, their 
final report included recommendations for improved transparent 
hiring process at the Civil Rights Division itself. And under 
the leadership of Assistant Attorney General Tom Perez, the 
Division has fully adopted each of those recommendations and is 
now predominantly staffed by attorneys with actual experience 
in the field of civil rights law.
    Enforcing the Fair Housing Act and the Equal Credit 
Opportunity Act. The Department's $335 million settlement with 
Countrywide Financial last December compensated families who 
were charged higher fees and interest rates because of their 
race or national origin. This enforcement action makes clear 
the Department will not hesitate to hold financial institutions 
accountable for lending discrimination.
    There are, of course, areas which we hope the Department 
will improve. But today, 4 years after the worst economic 
upheaval since the Great Depression, we are still looking to 
hold some of those Wall Street barons accountable. And 
according to one--well, let me conclude. My time has ended, and 
I thank the Chairman.
    And yet what we want to do here today is have a thorough 
and fair discussion. And I am going to ask that our colleagues 
on this Committee conduct themselves in a manner that is worthy 
of the Attorney General's present appearance here. I thank the 
Chair, and I yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Conyers.
    Our only witness today is United States Attorney General 
Eric H. Holder, Jr. On February 3, 2009, Attorney General 
Holder was sworn in as the 82nd Attorney General of the United 
States.
    Attorney General Holder has enjoyed a long career in both 
the public and private sectors. First joining the Department of 
Justice through the Attorney General's Honors Program in 1976, 
he became one of the Department's first attorneys to serve in 
the newly formed Public Integrity Section. He went on to serve 
as a judge of the Superior Court of the District of Columbia 
and the U.S. Attorney for the District of Columbia.
    In 1997, Mr. Holder was named by President Clinton to be 
the Deputy Attorney General. Prior to becoming Attorney 
General, Mr. Holder was a litigation partner at Covington & 
Burling, L.L.P., in Washington, D.C.
    Mr. Holder, a native of New York City, is a graduate of 
Columbia University and Columbia Law School.
    Mr. Holder, we appreciate your presence today, look forward 
to your testimony, and please begin.

   TESTIMONY OF THE HONORABLE ERIC H. HOLDER, JR., ATTORNEY 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Attorney General Holder. Well, good morning, Chairman 
Smith, Ranking Member Conyers, and distinguished Members of 
this Committee. I appreciate the chance to discuss some of the 
key accomplishments that have distinguished the Department's 
work throughout this Administration and to outline our plans to 
build upon this particular record of achievement.
    In particular I am proud of the work that has been done by 
the Department's 116,000 employees, as well as our government 
and law enforcement partners worldwide to help fulfill the 
promises that I made before this very same Committee about 3 
years ago.
    Shortly after I became Attorney General, I pledged to 
strengthen the Department's efforts to protect the American 
people from terrorism and other national security threats, to 
ensure that every decision, and every investigation, and every 
prosecution would be guided by the facts and by the law and by 
nothing else. I also reaffirmed my commitment to move 
aggressively to prevent and combat violent crime and financial 
fraud, to seek justice for victims, to protect the most 
vulnerable among us, to safeguard the environment, and to 
uphold the civil rights of all of our citizens.
    In each of these areas, the Department has made tremendous 
and, I think, in many case historic progress. Nowhere is this 
more evident than in our national security efforts. In the last 
3 years, the Department has secured convictions against scores 
of dangerous terrorists. We have identified and we have stopped 
multiple plots by foreign terrorist groups as well as homegrown 
extremists, and we have strengthened essential surveillance and 
intelligence-gathering capabilities in a manner that is 
consistent with the rule of law and our most treasured values.
    Just last month we secured our seventh conviction in our 
Article III civilian courts in one of the most serious 
terrorism cases that our Nation has faced since 9/11, an al 
Qaeda-sponsored plot to conduct coordinated suicide bomb 
attacks in the New York City subway system. And roughly 2 weeks 
ago, we obtained a guilty verdict in the case of a former 
member of the U.S. Army who intended to bomb U.S. soldiers in a 
restaurant in Killeen, Texas. On the same day another Texas man 
was sentenced to 20 years in prison for attempting to become a 
part of al Qaeda in the Arabian Peninsula.
    Now, in addition to our national security successes, the 
Department has made meaningful, measurable strides in 
protecting Americans from violent crime. Through innovative 
programs, such as our Defending Childhood Initiative and the 
National Forum on Youth Violence Prevention, we developed 
comprehensive, collaborative approaches to addressing the 
causes and remedying the consequences of violence among and 
directed toward our Nation's young people.
    By forging and strengthening partnerships between our 
United States attorneys' offices and Federal, State, local and 
tribal, and international law enforcement officials, we are 
combating gun, gang and drug-fueled violence more effectively 
than ever before. Alongside key law enforcement allies and our 
counterparts in Mexico and other countries, we have 
orchestrated a series of coordinated strikes against violent 
drug cartels, arresting thousands of cartel members and seizing 
billions of dollars in assets.
    We are also implementing strategic, desperately needed 
plans to address the shocking rates of violence that plague 
American Indian and Alaska Native women through tribal 
communities. And we are using every resource and tool as our 
disposal, including the power of research and scientific 
analysis, to protect our Nation's law enforcement community, 
which in recent years has seen an unfortunate and totally 
unacceptable rise in the line-of-duty deaths.
    Many of you worked to raise awareness about the tragic fact 
that violence against law enforcement offices is approaching 
the highest level that we have seen in nearly two decades. As 
Attorney General and as the brother of a retired police 
officer, I am proud that the Department has responded to this 
recent crisis with resolve and with robust action.
    Just last week I met with the Major Cities Chiefs Police 
Association at its summer meeting to discuss the ways we have 
developed and implemented the host of important programs, such 
as the landmark VALOR Initiative, which is providing our law 
enforcement partners with the latest in training tools and 
resources, as well as the Bulletproof Vest Partnership Program, 
which has helped more than 13,000 jurisdictions purchase 
lifesaving bullet- and stab-resistant equipment in order to 
help protect those who risk their lives to keep us safe. But 
simply, our commitment to officers' safety has never been 
stronger, and as recent achievements prove, the same can be 
said of our resolve to protect American consumers.
    Since the start of this Administration, the Justice 
Department has signaled an unwavering commitment to preventing 
and combating a wide range of financial and healthcare fraud 
crimes. We have taken bold steps to address the contributing 
factors and consequences of the recent economic crisis, and 
this work is paying dividends.
    Last year alone the Department's Consumer Protection 
Branch, working with U.S. Attorneys' offices across the 
country, obtained a 95 percent conviction rate; secured more 
than $900 million in criminal and civil fines, restitution and 
penalties; and obtained sentences totaling more than 130 years 
of confinement against more than 30 individuals.
    In cooperation with our partners at the Department of 
Housing and Urban Development and a bipartisan group of 49 
State attorneys general, we achieved a $25 billion settlement 
with five of the Nation's top mortgage servicers, the largest 
joint Federal-State settlement in the history of the United 
States of America. Through the efforts of the President's 
Financial Fraud Enforcement Task Force, which was launched in 
2009, we obtained prison sentences up to 60 years in a variety 
of fraud cases, including multimillion-dollar Ponzi schemes and 
the largest hedge fund insider trading case in the history of 
this country.
    We have established two new working groups to enhance civil 
and criminal enforcement of consumer fraud and to bring Federal 
and State authorities together in investigating and prosecuting 
misconduct by financial institutions in the organization, 
securitization and servicing of mortgages that contributed to 
our financial crisis. And we have continued to make tremendous 
gains in our work to combat healthcare fraud. In fact, over the 
last fiscal year, in cooperation with the Department of Health 
and Human Services and my partner Kathleen Sebelius, by 
utilizing authorities provided under the False Claims Act and 
other essential statutes, we have recovered nearly $4.1 billion 
in cases involving fraud or in Federal healthcare programs. 
That is the highest amount ever recorded in a single year. And 
for every dollar that we have spent combating healthcare fraud, 
we have returned on average $7 to the U.S. Treasury, the 
Medicare Trust Fund, and others.
    The Department has also taken crucial steps forward in 
protecting the most vulnerable members of our society and 
ensuring the civil rights of all of our citizens. Over the past 
3 years, our Civil Rights Division has filed more criminal 
civil rights cases than ever before, including record numbers 
of human-trafficking cases, in an effort to ensure that in our 
workplaces and our military bases, in our housing and lending 
markets, in our schools and places of worship, in our immigrant 
communities, and in our voting booths the rights of all 
Americans are protected.
    In addition, we are working to strengthen the rule of law 
across both the country and around the world and beyond our 
borders establishing the global alliance that is necessary to 
combat transnational organized crime as outlined in the 
President's strategy. This includes combating intellectual and 
financial property crimes, child pornography rings, organized 
criminal networks, and criminal facilitation of terrorist 
activities. And we have partnered effectively with Members of 
Congress to advance important changes in policy and 
legislation, from landmark hate-crimes legislation to the 
reduction of the unjust and unfair crack/powder cocaine 
sentencing disparity.
    This work goes on today in our efforts to help ensure the 
reauthorization of the Violence Against Women Act, a critical 
law that has transformed our Nation's response to crimes 
against women and enhanced our ability to achieve justice for 
victims, while holding offenders accountable. It goes on in our 
strong support for the renewal of essential authorities, such 
as those included in the Foreign Intelligence Surveillance Act 
amendment of 2008. And it endures in our determination to build 
upon the extraordinary accomplishments that have defined the 
past 3 years; to take our fight against terrorism, crime, fraud 
and other threats to a new level.
    I am proud of these and the Department's many other 
achievements, and I hope to spend most of our time today 
discussing how we are working to build on this progress. 
However, I would like to briefly address the ongoing 
investigations into the ATF gun-trafficking operations along 
the southwest border.
    As a result of concerns raised by ATF agents, we now know 
of several Arizona-based investigations that occurred under 
this Administration and the previous one where inappropriate 
tactics were used in an attempt to stem the flow of illegal 
guns across the southwest border. Although these law 
enforcement operations were focused on the laudable goal of 
dismantling illegal gun-trafficking networks, they were flawed 
both in concept and execution. I share your concerns about how 
these operations were developed and how they were implemented, 
and that is why, just as congressional leaders have called for 
answers, I asked the Department's inspector general to conduct 
a comprehensive investigation as well.
    I also put in place new leadership at ATF, which has taken 
steps, including the implementation of a stricter oversight 
procedure for all significant investigations, to prohibit the 
flawed tactics employed in these operations.
    Now, many of the key enhancements implemented by the 
Department are set out in the Deputy Attorney General's letter 
to the Committee that is dated January 27th of this year. Even 
since the date of that letter, however, we have continued to 
refine the Title III process. For example, our Office of 
Enforcement Operations now requires that before it even accepts 
a request for a wiretap intercept from a United States 
attorney's office, a supervisor in the relevant U.S. Attorney's 
office must personally approve that request.
    Now, I would be remiss if I did not point out that the ATF 
agents who testified before Congress have also asked that law 
enforcement be provided with the tools that it needs to 
effectively combat gun trafficking on the southwest border. And 
I want to reiterate my commitment to working with congressional 
leaders to meet the needs of our law enforcement partners and 
to help address serious national security challenges on our 
borders.
    Finally, I want to make clear that we welcome the recent 
engagement of congressional leadership in the Department's 
continued efforts to satisfy the legitimate goals of 
congressional oversight, while at the same time reserving the 
integrity and the independence of the Department's ongoing 
criminal investigations and prosecutions.
    The leadership's recent letter represented, I think, a 
promising step toward reaching a resolution as it accomplished 
two things. First, it narrowed the universe of documents still 
in dispute between the Justice Department and the House 
Oversight Committee. Second, it identified the specific 
questions that remain of concern to leadership.
    We are confident that the constructive discussions that 
have occurred since this letter can result in a mutually 
acceptable resolution. In all of these efforts, I am grateful 
for your continued support, and I would be happy to answer any 
of the questions that you might have. Thank you.
    Mr. Smith. Thank you, Mr. Attorney General.
    [The prepared statement of Mr. Holder follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Smith. Let me remind Members that the Attorney General 
is with us until 1:30 this afternoon, and in order for all 40 
Members of the Committee to be able to make comments and ask 
questions, we are going to need to adhere strictly to the 5-
minute rule.
    And I will recognize myself for questions.
    Mr. Attorney General, the Foreign Intelligence Surveillance 
Act amendments, which help protect our country from terrorists, 
expires the end of this year. Do you support the extension of 
those amendments?
    Attorney General Holder. We do support them. It is the most 
important legislative concern of the Intelligence Community, 
and we hope that Congress will pass that reauthorization before 
the expiration at the end of the year.
    Mr. Smith. Okay. Now, let me go to Operation Fast and 
Furious you mentioned in your testimony. Mr. Attorney General, 
who is the highest-level official in this Administration who 
knew that these tactics were being used? And I am talking about 
knew the tactics were being used before the death of Agent 
Brian Terry on December 15, 2010.
    Attorney General Holder. Well, we know that the operation 
began in the field office in Arizona, both the U.S. Attorney's 
office and in the ATF office there. The inspector general is in 
the process of examining the way in which----
    Mr. Smith. To your knowledge, who was the highest-ranking 
official in the Administration who knew about the tactics?
    Attorney General Holder. At this point I can say that it 
started in Arizona, and I am not at all certain who beyond that 
can be said to have been involved with regard to the use--now, 
there was knowledge of it, but with regard to the use of the 
tactics, I certainly don't----
    Mr. Smith. No one other than ATF officials in Arizona, you 
are saying, knew about the tactics used in Operation Fast and 
Furious before December 15, 2010; is that right?
    Attorney General Holder. I think that in terms of knowledge 
of the tactics as opposed to the operation itself, I don't 
think that anybody in Washington knew about those tactics until 
the beginning of----
    Mr. Smith. Speaking of those tactics, when were you first 
told or became knowledgeable about U.S. officials allowing 
firearms to be sold to the drug cartels in Mexico? And I would 
like a specific date, if you can give it to us.
    Attorney General Holder. I don't have a specific date. I 
got a letter from Senator Grassley at the end of January of 
2011. I think I became aware of tactics themselves probably in 
February of 2011, as I have indicated in the seven previous 
times that I have testified.
    Mr. Smith. Okay. And it wasn't until that letter from 
Senator Grassley that you knew about the firearms being allowed 
to be transferred to the drugs cartels in Mexico.
    Attorney General Holder. No, it was not in the letter. The 
letter directed my attention to the area that ultimately led to 
my understanding about the tactics. But the letter itself did 
not mention Operation Fast and Furious.
    Mr. Smith. Okay. And so once again, when did you learn 
about the tactics that were being used?
    Attorney General Holder. As I said, the early part of 2011.
    Mr. Smith. Okay. And that was immediately after--several 
weeks after the death of Brian Terry?
    Attorney General Holder. That happened in December 2010.
    Mr. Smith. Okay. And is that the same date that you found 
out that these firearms that were connected to Fast and Furious 
were found at the murder scene of Brian Terry, or did you find 
out about that before?
    Attorney General Holder. I don't know when I found out 
about--I don't remember when I found out about that particular 
fact. I would guess it would also be sometime in the early part 
of 2011.
    Mr. Smith. Why was it do you think that individuals who 
worked for you who were in this Administration would not have 
made it known to you or others outside of Arizona that firearms 
that were allowed to be given to drug cartels in Mexico by U.S. 
officials? Why did it take so long for you to learn or for 
others to tell you? Was there a coverup going on, or what was 
the explanation for you in your position not knowing more about 
the tactics?
    Attorney General Holder. Well, I think the answer is found 
in your question. No one knew about the tactics at the time of 
that initial discovery. It wasn't until the tactics were 
discovered that people started to understand that we had a 
problem here. But for those tactics, Fast and Furious was a 
midlevel regional investigation that from all reports was going 
on pretty successfully.
    Mr. Smith. But again, you didn't find out about those 
tactics until, say, 6 weeks or 2 months after the death of 
Brian Terry; is that correct?
    Attorney General Holder. Sometime in February. I think 
Agent Terry was killed December 10th or 14th, I believe, of 
December.
    Mr. Smith. When was anyone in the White House first 
informed about the tactics that were used under Operation Fast 
and Furious?
    Attorney General Holder. I don't know.
    Mr. Smith. Did you yourself not inform anyone in the White 
House about Operation Fast and Furious?
    Attorney General Holder. I am sure there was contact 
between staff, and the Justice Department probably, and the 
appropriate people in the White House about Fast and Furious. I 
don't remember myself ever sharing that information with----
    Mr. Smith. How would anyone in the White House have learned 
about it, and who would have learned about it under the normal 
chain of command?
    Attorney General Holder. I am sorry?
    Mr. Smith. How would the White House have learned about 
Operation Fast and Furious if not from you?
    Attorney General Holder. Well, through my staff and the 
interactions that we have with the White House Counsel's 
Office. That is the nature of----
    Mr. Smith. When did your staff inform the White House about 
Operation Fast and Furious?
    Attorney General Holder. I don't know.
    Mr. Smith. Were you ever curious about that?
    Attorney General Holder. My focus was on dealing with the 
problems associated with Fast and Furious.
    Mr. Smith. It seems to me that you would want to know--
would want White House officials to know what was going on in 
order to correct the problem.
    My time----
    Attorney General Holder. My focus was on the tactics and 
trying to solve the problem, and not awfully concerned about 
what the knowledge was in the White House. That is my 
responsibility.
    Mr. Smith. I understand, but I still think the White House 
would have been informed.
    Thank you, Mr. Holder.
    The gentleman from Michigan Mr. Conyers, the Ranking 
Member, is recognized for his questioning.
    Mr. Conyers. Thank you, Chairman Smith.
    Attorney General Holder, would you pull your mic up just a 
little bit closer, please?
    You have made reference to the ATF Multiple Sales Reporting 
program for certain types of rifles in States along the 
southwest border. This rule is intended to get at the real 
problem of gun violence on the border of Mexico. In your view, 
has the program been effective? Have we been stopping guns and 
saving lives?
    Attorney General Holder. Yeah. The rule simply says that 
for the multiple sale of certain kinds of weapons, including 
AK-47s, if somebody buys more than one over the space of 5 days 
in four border States, that that information has to be reported 
to the ATF. That has led to actionable leads. It is a very 
measured, responsible regulation that has been upheld by a 
court that has considered it and said that it is appropriate. 
And it is also totally consistent with what we do right now and 
have for the last 30 years with regard to the sale of multiple 
handguns.
    Mr. Conyers. And by the way, I think we repealed the 
assault weapon ban, and that has led to a proliferation of 
weapons that I think we need to take another look at here in 
our Legislature.
    Let us talk about the Mortgage Fraud Task Force of the 
President and how it is coming along. You know the effect this 
has had in our economy and on foreclosures and on families from 
one end of the country to the other. How is your staffing and 
resources picture in this context?
    Attorney General Holder. Well, I think we are doing pretty 
well. We have about, I think, 100 people or so who are 
presently involved in that task force. Subpoenas have been sent 
out; investigations are under way. We are working, I think, 
very effectively with a number of U.S. Attorneys as well as our 
partners on the State side, I think principally the attorney 
general from New York, Eric Schneiderman, as well as other 
State attorney generals. So I think the progress we are making 
there is very good.
    Mr. Conyers. Thank you.
    In 2009, you created a working group to review the 
Department's profiling guidance that came out in 2003 under 
then-Attorney General Ashcroft. In April of this year, 64 
Members of Congress wrote to urge you to revise that guidance. 
What is the status of the working group? And are there going to 
be changes to the guidance? And if you can, what would some of 
those changes be?
    Attorney General Holder. We are in the process of looking 
at that earlier policy and seeing if in light of experience 
there are changes that need to be made. I had a meeting 
concerning this issue, I think, over the last 2 weeks. It would 
be my expectation that to the extent that changes are to be 
made, that those would happen relatively soon.
    We are certainly working within the Justice Department, 
then I suspect we will have to have an interagency group, 
because there are a number of agencies whose equities are 
implicated by the prospective change. But it is something that 
we continue to look at and something in which I have been 
personally involved over the last 2 to 3 weeks.
    Mr. Conyers. And what was the goal of the so-called 
profiling guidance?
    Attorney General Holder. Well, to try to make sure that we 
did not hamper law enforcement, but at the same time that we 
had in place rules, regulations, guidance to those in law 
enforcement that did not--so that we did not engage in racial 
profiling, which is simply bad law enforcement.
    If one looks at al Qaeda, they understand that if we engage 
in profiling, they will be more successful. They look for--and 
this has been reported--people, as they call it, with clean 
skin, people who do not fit a particular profile. Those are the 
ones who they are trying to send to harm this Nation, and that 
is why profiling certainly in the national security context as 
well as, I would say, with regard to domestic law enforcement 
is such a bad idea.
    Mr. Conyers. Let me squeeze in my last question. Can you 
talk a little bit about the charges of selective enforcement of 
immigration law? I don't know if you have heard of any of those 
kinds of complaints, but can you respond to that for me, 
please?
    Attorney General Holder. Selective immigration?
    Mr. Conyers. Selection enforcement of immigration law.
    Attorney General Holder. You mean, by the Federal 
Government or----
    Mr. Conyers. The Arizona law and other----
    Attorney General Holder. The States.
    Mr. Conyers. At the State level.
    If I can finish this question, Mr. Chairman.
    Mr. Smith. Please, answer the question.
    Attorney General Holder. We have filed suit against 
immigration laws that have been passed by a variety of States. 
The Supreme Court has obviously heard argument in connection 
with the Arizona law.
    The concern that we have is that this is inherently a 
Federal responsibility, and that if we allow these State laws 
to proliferate, we will have a patchwork of laws that will make 
ultimate enforcement of our immigration laws impossible.
    Having said that, I understand the frustration that many 
States feel. I think it points out the need for a comprehensive 
solution to this problem.
    Mr. Conyers. Thank you very much.
    Mr. Smith. Thank you, Mr. Conyers.
    The gentleman from Wisconsin Mr. Sensenbrenner is 
recognized for his questions.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Mr. Attorney General, I do want to echo Mr. Conyers' 
commendation of you for coming before us on a very regular 
basis. I know it takes a lot of your time to prepare. I also 
know that you don't know what is going to get thrown at you, 
and sometimes there will be curveballs and beanballs. I hope 
mine is a curveball.
    I want to talk a little bit about the Florida voter 
registration case. And it appeared in The New York Times 
yesterday, there was an article there about the State defending 
its search for ineligible voters. And Secretary of State Ken 
Detzner of Florida has sent a letter to Mr. Herren of the 
Voting Section of the Civil Rights Division talking about the 
problem. And the problem is simply this, and that is as Florida 
is trying to purge its voter registration rolls of noncitizens, 
including illegal immigrants, people who are clearly not 
eligible to vote, and the Department of Homeland Security has 
had a 9-month delay in giving the national voter registration 
laws to the State, and now Mr. Herren appears to be taking the 
position that Florida can't do anything after the Federal 
Government has delayed giving Florida the information that it 
needs to do. What can be done to solve this problem?
    Attorney General Holder. Well, the problem with the Florida 
effort is that it runs counter to the National Voter 
Registration Act, which says you can't do this within 90 days 
of an election. You can successfully do that which Florida is 
trying to do as has been done and has been approved by the 
Justice Department in North Carolina and Georgia. They did it 
the right way.
    The database that I think Florida is requesting is not 
necessarily the answer to these problems. That database, as I 
understand it, which is a DHS database, does not contain on its 
rolls or within that database people who were born in the 
United States. That database will therefore be flawed and could 
result in the exclusion of people from voting who are native-
born Americans.
    Mr. Sensenbrenner. Well, the State of Florida has attempted 
to obtain this database for 9 months so that it could do its 
thing prior to the 90-day shutoff in the national voter 
registration law. And I have a copy of the letter from 
Secretary of State Detzner that talks about the due process 
protections, such as a notification by certified mail; return 
receipt; 30 days to respond; hearing if requested; if the mail 
notice is returned as undeliverable, then the names and 
addresses appear in a newspaper of general circulation; an 
additional 30 days, at the conclusion of the notice-and-hearing 
process, the registrar is supposed to make a final 
determination based upon the preponderance of the evidence and 
allow for an appeal of any determination of ineligibility to a 
State circuit court.
    Now, you know, this is probably due process times 3 or 4, 
maybe even 5 times. I would like to know what rights do 
noncitizens, and particularly illegal immigrants, you know, 
have to the protection of the Voting Rights Act and the 
National Voter Registration Act?
    Attorney General Holder. They have no rights, and I stand 
with any State official, Federal official who wants to make 
sure that our voting system is done in an appropriate way, and 
that people who are not allowed to vote in fact do not vote.
    But as a result of the way in which Florida has carried 
this out, I saw a report that an election official in southern 
Florida indicated that about 450 people on the list that--I 
believe it was a woman--that she got were indicated to be 
people who were not eligible to vote, who, in fact, were 
eligible to vote, and I think that points out the problem in 
the process that Florida is engaged in.
    Mr. Sensenbrenner. With all due respect, Mr. Attorney 
General, there is a problem. And any ineligible voter or 
fraudulent voter who has a ballot placed in the same ballot box 
as hundreds of legitimate voters ends up diluting the votes of 
the legitimate voters, and the Federal law is very clear on 
that.
    And, you know, here the Department of Homeland Security 
hasn't given Florida the means to start the process out with 
all of these protections that I have just listed. And it seems 
to me that if your job is to uphold the law, you know, the law 
sets out a process to give the States time to do this, but we 
have another agency of the government that you are supposed to 
be advising as Attorney General that has prevented the State of 
Florida from doing this.
    Attorney General Holder. I would say I respectfully 
disagree, and I point to you, as I said, other States that 
have--I don't know all the ways in which they did it, but who 
successfully have implemented a policy that I would agree with. 
I don't think we should have people who don't have the ability, 
who don't have the right to vote casting votes in our Nation. 
North Carolina, Georgia did it.
    Mr. Sensenbrenner. Well, then, please help Florida to do 
it, because apparently there has been a roadblock here in 
Washington. And my time is up.
    Mr. Smith. Thank you, Mr. Sensenbrenner.
    The gentleman from New York Mr. Nadler is recognized.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Attorney General, we have made several requests to you 
to allow us to review the Office of Legal Counsel memo that 
reportedly provides the legal justification for the lethal 
targeting of U.S. citizens who are terror suspects. The 
Department has sought dismissal of cases seeking judicial 
review of lethal targeting by arguing, among other things, that 
the appropriate check on executive branch conduct here is 
Congress, and that information is being shared with Congress to 
make that check a meaningful one. Yet we have yet to get any 
response to our request. Will you commit to providing that memo 
to us and to providing a briefing?
    Attorney General Holder. We certainly want to provide 
information to the extent that we can with regard to the 
process that we use in selecting targets. I gave a speech at 
Northwestern University. Mr. Brennan gave a speech here, I 
believe----
    Mr. Nadler. Excuse me. Will you commit to providing a copy 
of the briefing--a copy of the legal memo from OLC?
    Attorney General Holder. We will certainly look at that 
request and try to determine whether----
    Mr. Nadler. And a briefing to the Members of this 
Committee?
    Attorney General Holder. And we will certainly consider the 
possibility of a briefing.
    Mr. Nadler. The possibility? You won't commit to giving a 
briefing to this Committee?
    Attorney General Holder. I think that we are going to 
probably be in a position to provide a briefing, but I would 
like to hear from the involved people in the Intelligence 
Community as well as people at OLC about how we might 
structure----
    Mr. Nadler. You will get back to us on that within, let us 
say, a month?
    Attorney General Holder. We can do that.
    Mr. Nadler. Thank you.
    When running for President and talking about medical 
marijuana being legally used around the country in certain 
jurisdictions, President Obama said the following, quote: ``I 
am not going to be using Justice Department resources to try to 
circumvent State laws on this issue,'' closed quote. Apparently 
the Department has not followed the President's admonition. 
Since 2009, DOJ has conducted around 200 raids on medical 
marijuana dispensaries and growers and brought more than 60 
indictments. It is my understanding that the Department has a 
more aggressive record on prosecuting these cases in this 
Administration than under the previous Administration.
    The President clearly did not want to prioritize 
prosecutions involving medical marijuana. And while I 
understand selling and possessing marijuana remains against 
Federal law, the citizens of 17 States and the District of 
Columbia believe its medical use should be legal.
    Given these facts, why is DOJ focused so extensively on 
investigating and punishing those who legally grow and sell 
marijuana legally under local law, contrary to the apparent 
intent of what the President said on this subject?
    Attorney General Holder. See, this is inconsistent with 
these little things called the facts. The Justice Department 
indicated in a memo that went out by the Deputy--then-Deputy 
Attorney General that we were not going to use the limited 
resources that we have to go after people who are acting in 
conformity with State law, people who had serious illnesses, 
people who were acting, as I said, consistent with State law.
    But one has to deal with the reality that there are certain 
people who took advantage of these State laws and a different 
policy that this Administration announced than the previous 
Administration had, and have come up with ways in which they 
are taking advantage of these State laws and going beyond that 
which the States have authorized. Those are the only cases that 
we----
    Mr. Nadler. So you are saying that you are not targeting 
people who are growing and distributing marijuana only for 
medical purposes and following the applicable State law?
    Attorney General Holder. Yes. We limit our enforcement 
efforts to those individuals, organizations that are acting out 
of conformity with State laws, or, in the case of instances in 
Colorado, where distribution centers were placed within close 
proximity to schools.
    Mr. Nadler. Okay. On September 23, 2009, you issued a memo 
setting forth policies and procedures governing the executive 
branch's invocation of the state secrets privilege. That policy 
requires your personal approval for the Department to defend 
assertion of the privilege in litigation. In how many cases 
since September of 2009 have approved personally invocation of 
the privilege?
    Attorney General Holder. I would have to look at that. 
There have not been many. I think one, two, three, something 
along those lines. I am not sure.
    Now, those numbers get skewed a little bit because in the 
second circuit, in order to use the SEPA statute, the second 
circuit has a rule that says we have to invoke the state's 
privilege, but I don't think that is the same----
    Mr. Nadler. I have a number of other more specific 
questions on this that I am going to submit to you, but I see I 
am coming to my end of time, so I have one further question on 
this.
    You do not indicate in this policy whether the 
Administration will agree to judicial review of the basis for 
invoking the privilege. The prior Administration took the 
position that information could not even be disclosed in camera 
to an Article III judge, thus ensuring that there was no 
judicial review of whether the privilege was being properly 
invoked.
    What is your position as to judicial review of the 
information that the government seeks to withhold in two key 
respects: One, can a judge review the allegedly privileged 
information; and two, can the judge disagree with the executive 
branch's decision as to whether the privilege is properly 
invoked?
    Attorney General Holder. Well, I think that we have shared 
information with Article III judges, but the way in which the 
privilege is set out, it is, I think, at the end of the day for 
the executive branch to make that determination. But we have 
put in place a process that requires multiple levels of review.
    Mr. Nadler. Within the executive branch. But you are saying 
that you do not agree that ultimately a decision should be 
subject to judicial approval or disapproval as to invocation of 
the privilege?
    Attorney General Holder. Ultimately a judge, I think, would 
probably override our assertion of the privilege, and then we 
would have to decide whether or not we wanted to dismiss the 
case. But our hope is that through the process that we go 
through, we only invoke the privilege where it is absolutely 
necessary. And I think if we look at the statistics, we would 
probably see that we have invoked the privilege far fewer times 
than our predecessors.
    Mr. Nadler. I hope you will share those statistics with us. 
Thank you.
    Mr. Smith. Thank you, Mr. Nadler.
    The gentleman from California Mr. Gallegly is recognized.
    Mr. Gallegly. Thank you very much, Mr. Chairman.
    Good to see you again, Attorney General Holder.
    On your last visit here, we asked about a few issues that 
we would like to get a response from. In fact, I am 
disappointed that to date your office has been unable to 
provide answers to what I consider some very simple questions 
that we asked in that meeting having to do with prosecutions of 
worksite enforcement cases. I am especially interested in the 
number of DOJ worksite enforcement prosecutions for each of the 
last 4 years, the number of prosecutions of illegal workers who 
have been using fraudulent documents. When can I realistically 
expect to get a response on that?
    Attorney General Holder. I was under the impression that we 
had responded to all of the questions that were put to me 
either during the hearing or as I guess we call ``Q-fers.'' If 
that is not the case, I will make sure----
    Mr. Gallegly. I have not received them. In fact, we will be 
happy to reiterate with specificity what those were, but it is 
pretty straightforward.
    Attorney General Holder. All right. We will get you those 
numbers, and I apologize if you have not gotten them.
    Mr. Gallegly. Okay. We will work with your office.
    You know, we all know that many illegal immigrants are 
using fraudulent Social Security numbers or individual taxpayer 
numbers to take jobs from American citizens. I don't think 
there is any question about that in anyone's mind. They also 
receive taxpayer benefits such as child tax credits, earned 
income tax credits. There have been reports that some illegal 
immigrants are claiming tax credits for children not even 
living in the United States.
    What specific--and I want to emphasize the word 
``specific''--steps are being used by DOJ to stop this fraud, 
recover taxpayer money, deport the illegal immigrants who have 
committed the criminal fraud?
    Attorney General Holder. Well, you know, we work with our 
partners at DHS to come up with a number of ways in which we 
try to make sure that people, through worksite enforcement, 
through reaching out to employers, to make it clear what the 
policies are, what the law is. We use a variety of techniques 
to try to make sure that the kinds of people you are talking 
about are not, in fact, getting benefits to which they are not 
entitled. It is something that we have worked, I think, pretty 
effectively with with DHS.
    Mr. Gallegly. Would this group of individuals that I am 
speaking about, those that have clearly committed fraud, are 
these folks on a priority list for deportation, or are they 
among those that have been given an exemption or a review to 
get a temporary green card?
    Attorney General Holder. No. I mean, I think that we look--
we certainly have prioritized those people for deportation, and 
we have tried to place at the head of that list people who 
potentially pose criminal problems for those of us in the 
United States or in the immigrant community, people who have 
engaged in violent acts. Those are the ones we are emphasizing. 
It doesn't mean that those further down the list are not also 
people who we are trying to deport----
    Mr. Gallegly. Well, we know, and I am glad to hear, that 
acts of violence by criminal aliens are at the top of the list, 
but the fraud issue, to me, is also an offense that should be 
very close to the top of the list when they are stealing the 
taxpayers' dollars that could otherwise be used to help your 
Department, for instance.
    Also back in December, we talked about DOJ addressing the 
issue of Medicare fraud. And we know by many accounts there is 
as much as $60 billion a year that has been used as being 
stolen from our Medicare program fraudulently. What steps is 
DOJ taking to increase prosecutions on Medicare and also 
Medicaid fraud?
    Attorney General Holder. I am sorry. We are working with 
our partners at DHS, Kathleen Sebelius, the Secretary at HHS, 
have been going around the country and expanding what we call 
the Heat Strike Force teams to increase the Federal presence in 
our investigative capacity in those cities where we have 
identified these problems. And what we have seen is that we 
have received in the settlements in the prosecutions that we 
have brought record amounts of money brought back into the 
Federal Government. As I indicated in my opening statement, for 
every dollar that we spend in enforcement, we bring back $7 to 
the Federal Government. And it is something that I think should 
be funded at as high a level as we possibly can.
    Mr. Gallegly. One closing question. Could you provide 
information to the Committee on what specific enforcement is 
taking place in this area in California, specifically southern 
California, and more specifically in and around the area of Los 
Angeles and areas like Glendale, California?
    Attorney General Holder. We can do that. I can certainly 
make clear to you what we are doing generally with regard to 
all the cities that we have targeted, but I can also share with 
you what we are doing in California, in the area of California.
    Mr. Gallegly. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you, Mr. Gallegly.
    The gentleman from California Mr. Berman is recognized.
    Mr. Berman. Thank you very much, Mr. Chairman, and welcome, 
Attorney General.
    I want to start by commending you and the Department for 
your diligent work defending U.S. taxpayers against fraud by 
government contractors. Every year I watch the total amount 
recovered for taxpayers under the False Claims Act increase, 
and I am grateful for the work that the Department and 
whistleblowers do together to protect our tax dollars. I think 
we are now up to something just over $30 billion. And a lot of 
my colleagues today are focusing on their beefs with you today. 
I want to talk about this subject, because here I think here 
the Justice Department and you are doing this right, and it 
seems the law is quite effective, and I would like to make sure 
it stays that way.
    Earlier this year you invited me to take part in the 
commemoration of the 25th anniversary of the False Claims Act, 
and though I wasn't able to participate in the panel discussion 
that followed the main event, I am told that one of the issues 
discussed on that panel was whether or not we should change how 
relators are compensated for their efforts and recovery on 
behalf of the taxpayers.
    In October of last year, the United States Chamber of 
Commerce put out a report suggesting that a hard cap of $15 
million would be adequate to compensate any relator. Their 
logic seemed to be that that amount would cover most people's 
future earnings if their efforts as a whistleblower kept them 
from working again. The report also suggests that such a cap 
would not deter whistleblowers from pursuing qui tam cases, 
because in their study of 26 cases, the whistleblowers 
responded to a question about why they would be willing to 
bring suit, and most of them said that they did it because it 
was the right thing to do.
    I believe that, but I also know for a fact that the 
whistleblowers put themselves at tremendous risk when they make 
the decision to file suit and try to recover on behalf of the 
government and the American taxpayer. These cases are expensive 
to pursue, and they can last for years. They require 
commitment, and I don't know if a general good feeling about, 
quote, ``doing right'' is what will make someone remain 
committed to the cause for the long haul.
    Right now relators can be awarded a percentage between 15 
and 30 percent depending upon the certain factors such as 
whether or not the government joined the relators as 
plaintiffs. In my mind, and I think the history of the act 
bears this out, this percentage share encourages a relator to 
pursue a case until they can recover an amount equal to the 
entire impact of their fraud as opposed to settling when the 
case goes too long, perhaps because they know there is a hard 
cap, and they can only recover so much money.
    Though the Chamber argues that a hard cap would save the 
government money, I have to wonder how many cases it would 
deter or at least reduce the recovery for the taxpayers. In 
today's world, where some of these cases recover billions of 
dollars, if a hard cap deterred even one such case, it would be 
a very costly endeavor for taxpayers.
    When we consider the False Claims Act amendments in 1986 
and in revisions since, proposals to enforce a hard cap have 
not been well-received. Of course, there are reasons that 
defendants fighting qui tam suits would want to limit damages, 
but I am more focused on what works best for the taxpayer. I 
believe what we have now is working well.
    I sent you a letter on this subject earlier this month, but 
I wonder if you could share some thoughts with me now about 
whether the Department remains committed to relaters being 
awarded a percent share or if you support a shift to a hard 
cap.
    Attorney General Holder. Well, I have to say that I am not 
totally familiar with the proposal that you have described. But 
I can say that the act, as it is presently constructed, is 
working extremely, extremely well. And you are right, we asked 
you to come to the Justice Department to celebrate the success 
that we have had over the past 25 years with regard to an act 
that you were instrumental in passing.
    Over the past 25 years, we have had nearly 8,000 qui tam 
cases that have filed that have yielded more than $21 billion 
in recoveries--$21 billion in recoveries--for the United 
States, $3.4 billion in awards to relaters. In fiscal year 2011 
alone, the Department recovered more than $2.78 billion in qui 
tam cases; relaters received about $530 million as their 
statutory shares.
    The statute as it is presently constructed works, and works 
quite well. I would be reluctant to fool around with a formula 
that for the past 25 years has shown to be an effective tool in 
getting at fraud and incentivizing people to stay involved in 
the process and working with government as partners. Now, 
again, I will look at it, but I have to tell you that, on the 
basis of my examination of the regulation as it exists, the 
statute as it exists, I would be extremely reluctant to tamper 
with it.
    Mr. Smith. Thank you, Mr. Berman.
    The gentleman from Virginia, Mr. Goodlatte, is recognized.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    General Holder, both the Criminal Division head Lanny 
Breuer and his deputy, Jason Weinstein, had knowledge that the 
ATF let a bunch of guns walk, and some were recovered in 
Mexico, all related to the Fast and Furious scandal.
    In a prior operation, when they reviewed the February 4, 
2011, letter that falsely denied the ATF knowingly allowed the 
sale of assault weapons to a straw purchaser who transported 
them to Mexico, do you think it is a serious offense for an 
individual to mislead the Congress?
    Attorney General Holder. Well, first, with regard to the 
question, I think you have it a little off there. The two 
individuals who you talk about, Mr. Weinstein and Mr. Breuer, 
did not know about the tactics used in Fast and Furious until 
the beginning of last year. The----
    Mr. Goodlatte. But they did acknowledge that, quote, ``ATF 
let a bunch of guns walk,'' and, quote, ``some were recovered 
in Mexico,'' end quote.
    Attorney General Holder. That was in connection, I believe, 
with Operation Wide Receiver that occurred----
    Mr. Goodlatte. Correct.
    Attorney General Holder [continuing]. In the prior 
Administration.
    Mr. Goodlatte. Correct. Correct. But they did not 
acknowledge that in their communication with the Congress. So 
my question to you is, do you think it is a serious offense for 
an individual to mislead the Congress about what they know 
about what is going on in your department?
    Attorney General Holder. Well, to the contrary, they did 
acknowledge to Congress that they did have that information 
about Wide Receiver and said that it was a mistake on their 
part not to share it with the leadership of the Department, 
that prior knowledge. Also indicated that it was a mistake on 
their part not to use that prior knowledge when they were 
looking at Fast and Furious to try to understand that they 
should have been more sensitive to what was going on with 
regard to Fast and Furious.
    Mr. Goodlatte. What consequences have they faced as a 
result of that?
    Attorney General Holder. Well, they are certainly--they 
have apologized. They have been----
    Mr. Goodlatte. An apology is a good thing, but it is not a 
consequence for gross mismanagement of an operation that cost 
the life of one border security guard. Why haven't these two 
most senior political attorneys in the Criminal Division faced 
any consequences at all for their participation in this lack of 
being forthcoming to the Congress and to others and for not 
putting a halt to the subsequent activities that took place?
    Attorney General Holder. Well, again, I think your premises 
are wrong. They have been forthcoming to Congress. They have 
testified or been interviewed in a way that I think is 
consistent with the facts. They have been very forthright 
about----
    Mr. Goodlatte. But what about the underlying decision of 
allowing this to go forward?
    Attorney General Holder. And that is the another part of, I 
think, your premise that is not right. They were not in charge 
of, they did not have operation control of Operation Fast and 
Furious.
    Mr. Goodlatte. But when they knew about it, what did they 
do about it?
    Attorney General Holder. Well, that happens about the same 
time everybody in Washington finally hears about these tactics. 
They were assured by the people in Arizona that the gun-walking 
in fact did not occur. That is the information that they got. 
If you look at the materials that we submitted to Congress, the 
deliberative materials that we submitted to Congress around the 
February 4th letter, you will see that neither Mr. Breuer nor 
Mr. Weinstein had information about the use of--they were, in 
fact, assured that gun-walking tactics were not employed with 
regard to Operation Fast and Furious.
    Mr. Goodlatte. Now, with regard to the prosecution of 
Senator Ted Stevens in Alaska, in that case Senator Stevens was 
falsely prosecuted. His reputation was ruined; he was not re-
elected to the United States Senate. And it was determined that 
the U.S. prosecutors were engaged in outright fabricating of 
some evidence, deliberately withholding information that 
revealed the Senator's innocence. And, ultimately, they were 
held in contempt of court, and the charges against Senator 
Stevens were dismissed.
    But what consequences have they faced? To my knowledge, the 
only consequences for engaging in the outright fabrication of 
evidence and deliberately withholding exculpatory evidence that 
would have revealed the Senator's innocence was that one of 
them was suspended without pay for 40 days and the other for 15 
days. Why were not these individuals fired?
    Attorney General Holder. Well, there----
    Mr. Goodlatte. Some would say they should have been 
disbarred for that activity. That is not the purview of the 
Justice Department, but, certainly, no longer having them on 
the payroll of the Justice Department would be a good step in 
the right direction, wouldn't it?
    Attorney General Holder. Well, again, there are a number of 
premises there that are inconsistent with the facts.
    This is a case that was brought by the prior 
Administration. It was not dismissed by the court. I dismissed 
the case, this Attorney General dismissed that case after I had 
concerns about the way in which we had failed to turn over 
information that the defense had a right to.
    The OPR report looked at the matter and made a 
determination that they did not do so intentionally. It is 
inconsistent or it is at tension with the report that was done 
by Mr. Schuelke and the recommendation made by those people 
charged with the responsibilities that those penalties should 
be imposed, I guess 40 days and 15 days.
    This is not something that the Attorney General, the Deputy 
Attorney General is involved in, the determinations as to how 
those cases--what punishment should be made or findings of fact 
is done by people who are career within the Department. The 
same thing happened with regard to the determination concerning 
Mr. Yoo and the creation of those OLC memos involving 
interrogation techniques. Whether or not the Attorney General 
agrees or disagrees with what the career people do, the 
tradition in the Department is that that is something for 
career people charged with that responsibility to ultimately 
determine.
    Mr. Goodlatte. Mr. Chairman, I would ask that a letter 
dated February 4, 2011, signed by Ronald Weich, Assistant 
Attorney General, which I think rebut the statements made by 
the Attorney General with regard to what was known and what was 
not known about Operation Wide Receiver and Operation Fast and 
Furious, be made a part of the record.
    Mr. Smith. Without objection, the documents will be made a 
part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Smith. The gentleman from Virginia, Mr. Scott, is 
recognized.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    And thank you, Mr. Attorney General, for being with us 
today.
    Mr. Holder, you have been criticized for not turning over 
information upon request to one of the Committees. Did some of 
those requests involve information pertaining to confidential 
informants and wiretaps under seal, court-ordered seal, and 
information related to ongoing investigations?
    Attorney General Holder. Yes, that is true, but we have 
turned over a very significant amount of information. We have 
collected data from 240 custodians. We have processed millions 
of electronic records. We have turned over 7,600 pages on 46 
separate productions. We have----
    Mr. Scott. Well, could you tell us, what is wrong with 
handing over information involving confidential informants, 
wiretap information under court seal, and information related 
to ongoing investigations?
    Attorney General Holder. We are, by law, prohibited from 
discussing or turning over the contents of wiretap-related 
material. There is a criminal provision that has a 5-year 
penalty that prevents us from doing that.
    And there is also a very practical reason. There are 
concerns that one would have about people who are involved in 
these matters. You might put victims' safety at risk. You might 
put at risk the success of a prosecution.
    Those are all the reasons why there are very tight 
restrictions on the provision of material connected to 
wiretaps.
    Mr. Scott. Thank you.
    Mr. Issa. Would the gentleman yield?
    Mr. Scott. I have very little time.
    Mr. Issa. I will be very brief.
    Mr. Scott. Go ahead.
    Mr. Issa. We did not request any wiretaps under seal, since 
I am the person who signed the subpoenas.
    Mr. Scott. Thank you.
    Reclaiming my time, Mr. Attorney General, Section 5 is 
there to prevent discriminatory election practices from going 
into effect. If you didn't have Section 5, discriminatory 
voting changes could go into effect until the victims of 
discrimination raised enough money to get into court to get an 
injunction. Those who benefit from the discrimination would get 
to legislate until the law is overturned. And when overturned, 
they would get to run with all the advantages of incumbency as 
a result of their discrimination.
    And so there is an incentive to keep discriminating. But 
under Section 5, the burden is on covered States to demonstrate 
that an election change does not have a discriminatory effect 
and purpose. Section 5-covered States were not selected 
randomly; they were covered the old-fashioned way: They earned 
it, with a history of discrimination.
    Now, how is the Department of Justice using Section 5 to 
prevent discriminatory voting practices? And, specifically, 
what are you doing in Florida to prohibit purging of voters, 
according to press reports, that include decorated war veterans 
clearly eligible to vote?
    Attorney General Holder. Well, I think firstly, just a bit 
of an overview. And this will take just a second.
    You have to understand that over the course of the time in 
which I have been Attorney General, we have looked at about 
1,800 requests for preclearance under Section 5. We have 
opposed 11--11. Eighteen hundred requests, we have opposed 11. 
Now, included among those is what Florida has been trying to do 
with regard to the Section 5-covered counties, that one of 
which--one of those changes which a Federal judge has already 
said is inappropriate.
    Section 5 was reauthorized by a near-unanimous Congress, 
signed by President Bush, findings made by this Congress that 
the need for Section 5 continues, reauthorized, I believe, 
until 2031. It is the position of this Department of Justice 
and certainly this Attorney General that we will vigorously 
defend and vigorously use Section 5. The need for it is still 
there.
    Mr. Scott. Thank you.
    The first bill this President signed was the Lilly 
Ledbetter Act dealing with discrimination in employment. One of 
the things that, in talking about discrimination in employment, 
in 1965 President Johnson signed an Executive order prohibiting 
all discrimination in employment with Federal contracts. I 
understand this Administration still allows discrimination in 
Federal contracts based on religion, if it is a so-called 
faith-based group.
    My question is, do they need permission, a certification to 
qualify for the right to discriminate? Or do they just get the 
right to discriminate based on the fact that they are faith-
based organizations using Federal money?
    Attorney General Holder. Well, I think we are committed to 
ensuring that we partner with faith-based organizations in a 
way that is consistent with our laws, our values. And the 
Department will continue to evaluate legal questions that arise 
with respect to these programs and try to ensure that we--make 
sure that we ensure that we fully comply with all of the 
applicable laws.
    Mr. Scott. Does that mean they can discriminate?
    Mr. Smith. The gentleman's time has expired.
    Mr. Scott. I think it was a yes-or-no answer.
    Mr. Smith. Okay.
    Mr. Attorney General, go on. If you would, answer the 
question.
    Attorney General Holder. As I said, we try to do this--we 
look at the policies and try to make sure that they act in a 
way that is consistent with law.
    Mr. Smith. Okay. Thank you, Mr. Scott.
    The Chairman from California, Mr. Lungren, is recognized.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Attorney General, I would just follow up on what my 
friend from Virginia, Mr. Goodlatte, had to say with respect to 
the Stevens case. I realize that you reassigned people after 
that. I realize it was an investigation and indictment that 
came before you were Attorney General. That is not the point. 
The point is, if you have no real consequences now, you are 
going to have no real changes in the future.
    That was conduct that was stated by the judge to be 
outrageous. He held a hearing as to whether a new trial ought 
to be called. Before he made a ruling, you did come forward 
with a motion to dismiss, recognizing the problems internally. 
The investigations showed widespread misconduct among the whole 
team, and yet I am unaware of anybody that was fired.
    And Senator Stevens lost his election, but, more 
importantly, he lost his reputation. And I happen to think that 
in the absence of serious action taken against employees of 
either the Department of Justice prosecutorial corps or the 
FBI, that, frankly, the message is not seriously received. So I 
would just like to state that for the record.
    And now, Mr. Attorney General, if I were lucky enough to be 
invited down to meet you or see you at your office at the 
Justice Department, wouldn't I have to show a government-issued 
photo ID to get in to see you?
    Attorney General Holder. You might.
    Mr. Lungren. If I were to go to the Federal courthouse here 
in D.C. either as a party or as an attorney, wouldn't I have to 
show a government-issued photo ID?
    Attorney General Holder. That has not been my experience 
here in D.C. I don't--you know.
    Mr. Lungren. Some Federal courts--are you aware that that 
is required in some Federal courts in this land?
    Attorney General Holder. I don't know.
    Mr. Lungren. Are you aware that if I have to come here from 
California to exercise my constitutional right of travel and as 
an ordinary citizen petition the government for a redress of my 
grievances, I have to show a government-issued photo ID, do I 
not?
    Attorney General Holder. That one, yes. To get on a plane, 
you have to have a photo ID.
    Mr. Lungren. Okay. And that does involve the constitutional 
right of travel among the States, correct?
    Attorney General Holder. Yep. The Supreme Court has said 
that the right to travel is of constitutional dimension.
    Mr. Lungren. So is your Justice Department investigating 
the discriminatory effect of those laws with respect to 
someone's constitutional right to travel or constitutional 
right to visit you? I mean, the Constitution doesn't say, 
petition the government for redress of grievances only goes to 
some people. I mean, if I have a complaint with the Justice 
Department and want to come to the Justice Department, are you 
inhibiting me, affecting my constitutional right by requiring 
me to show a government-issued photo ID?
    Attorney General Holder. No, but let's get to the bottom 
line here. That----
    Mr. Lungren. Well, no, this--my question is----
    Attorney General Holder. All right. Well, I will give you 
an answer. The answer----
    Mr. Lungren. Well, that is all I am asking.
    Attorney General Holder. The answer is that, with regard to 
the limited things that you have discussed, it might not have 
an impact on your constitutional right, but that some of the 
laws that we have challenged do have an impact on a person's 
ability to exercise that most fundamental of constitutional 
rights, and that is the right to vote.
    Mr. Lungren. It is a fundamental right to petition the 
government to redress my grievances. Don't you think that is as 
important as, quote/unquote, the ``right to vote''?
    Attorney General Holder. I would agree with President 
Johnson, with what he said after the 1965 Voting Rights Act was 
passed, that voting is the most important right that we have as 
American citizens. It is what distinguishes this country and 
makes it exceptional as compared to other Nations around the 
world.
    Mr. Lungren. Okay. I also happen to think it is important 
that we have the opportunity to petition the government to 
redress the grievances. I think that is as fundamental a 
concept.
    Attorney General Holder. But through the vote, I can change 
the government. I have that ability through my right to vote.
    Mr. Lungren. Well, you can sue me in court. You can 
threaten to sue me in court. And as a proud individual American 
citizen, I suppose I have a right to at least talk to you about 
whether you are going to bring me before the court and bring 
the majesty of the government against me. And I would think 
that that is as important a right.
    Now----
    Attorney General Holder. Well, I certainly have that 
ability to talk to you. But if I disagree with you, at the end 
of the day, I have the ability to cast a ballot----
    Mr. Lungren. But I can't even come in and talk to you 
unless I show a government-issued photo ID, is my point.
    Now----
    Attorney General Holder. No, that is not true in the 
government. That is not true at the Justice Department. If you 
were to show up at the Justice Department, somebody could vouch 
for you and you could come into the Department and we could 
have a very civil, I am sure, conversation.
    Mr. Lungren. Is that right? Okay. I haven't tried that with 
TSA. That doesn't work very, very well in terms of being able 
to get on an airplane to fly back here to knock on your door to 
get to see you.
    Attorney General Holder. Well, there are terrorists who are 
trying to bring down planes, as we have seen over the course of 
the last, I guess, 12 years.
    Mr. Lungren. And there are people who cheat about voting 
when they don't have a right to vote.
    Attorney General Holder. We do not see that to the 
proportions that people have said, you know, in an attempt to 
try to justify these photo ID laws. All of the, I think, 
empirical and neutral evidence shows that questions of vote 
fraud do not exist to the extent that people say that it does 
exist.
    Mr. Lungren. So the Supreme Court was wrong in its decision 
in 2007 when it said that States have a legitimate interest in 
requiring photo IDs for voters even absent evidence of 
widespread fraud in order to inspire confidence in the 
electoral system? You disagree with the Court on that?
    Attorney General Holder. You know, what is interesting 
there--and please expand----
    Mr. Smith. If you will, answer the question, and then we 
will move on.
    Attorney General Holder. Sure.
    The Supreme Court--the Crawford case is fundamentally 
different from that which we are talking about now. That was 
not a Section 5 case. Indiana is not covered by Section 5 of 
the Voting Rights Act.
    And I would just--with all due respect, Attorney General 
Mukasey talked about the Crawford decision, the Indiana 
decision, and this tells how it is different. He says that 
``the Court acknowledged the undeniable fact that voter ID laws 
can burden some citizens' right to vote. It is important for 
States to implement and administer such laws in a way that 
minimizes that possibility.'' He then said, ``We will not 
hesitate to use the tools available to us, including the Voting 
Rights Act, if these laws, important though they may be, are 
used improperly to deny the right to vote.''
    That is Michael Mukasey talking about the Indiana Crawford 
decision--Michael Mukasey, not Eric Holder, Michael Mukasey.
    Mr. Smith. Thank you, Mr. Lungren.
    The Chairman from North Carolina, Mr. Watt, is recognized.
    Mr. Watt. Thank you, Mr. Chairman.
    Let me start by just expressing my disappointment that some 
of my colleagues are spending so much time advancing the notion 
that we should be disqualifying people from exercising the most 
basic right that they have in our democracy, the right to vote. 
And that this is the Judiciary Committee in which these 
arguments are being advanced is just disappointing to me.
    Second, I want to applaud the Justice Department for some 
work that they are doing in my congressional district in 
particular, some very high-level cases fighting drug 
trafficking, protecting against child predators, a bunch of 
money we spent on the COPS program. And the most vigorous 
supporters of the COPS program are the most conservative 
sheriffs in my congressional district because they have been 
able to access funding to beef up their law enforcement 
capacity.
    So I won't go back to the voting rights part of this 
because I think I will get too emotional about that. Let me 
deal with the thing that is under my Subcommittee's 
jurisdiction, the one that I am the Ranking Member on, and that 
is, we have made some efforts to try to do something about 
piracy. We were not successful legislatively, but the problem 
has not gone away.
    A recent article in USA Today notes the proliferation of 
dangerous counterfeit products that pose safety concerns for 
the American public. Many of these products, including 
counterfeit pharmaceuticals, are available online and come from 
foreign sources.
    In January of this year, the Department of Justice issued 
indictments against Megaupload, a foreign-based Web site that 
was charged with illegally infringing the copyrights of 
American businesses. And now I note that some group has--what 
is it called, Anonymous--unleashed a series of cyber attacks in 
the aftermath of the indictments against Megaupload. So now 
there is a connection between piracy on the one hand and 
cybersecurity on the other hand.
    Can you just talk to us about the real threats that we have 
in that area, both on the piracy side of this issue and on the 
cybersecurity, and their connections just a little bit so we 
will have some background that at least informs the American 
people of how serious the problem is?
    Attorney General Holder. I mean, the piracy issue has a 
number of dimensions to it. It is an economic issue, it is a 
jobs issue. When the theft of our intellectual property or the 
methods that we use to produce things is stolen by other 
organizations or by other countries, it has a direct impact on 
our economy.
    There is also a safety factor. Health items, medicines that 
are produced in a way that are inconsistent with the great 
standards we have in the United States, then sold back to the 
United States or sold in other countries, can put people at 
risk. The whole question of various parts that can be used in 
airplanes. Other things that are not done in a way consistent 
with the way in which our intellectual property standards are 
done can have a negative impact on safety in that way.
    So the piracy question is one that has economic 
consequences as well as safety consequences. If one looks at 
the whole cyber issues, again, these are national security 
issues. The ability of foreign countries or organizations to 
have an impact on our infrastructure, to use cyber tools to 
ferret out secret information from the United States, all puts 
our Nation at risk and is worthy of the attention of, I think, 
this Committee, this Congress, and the executive branch. And I 
would hope that we would be able to work together to come up 
with a way in which we could craft tools to deal with what is 
truly a 21st-century problem.
    Mr. Watt. I thank you. And at the risk of not going over 
time like some of my colleagues have, I will just stop there, 
because any other question I could ask would be well over into 
the next person's time.
    So I will yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Watt.
    The gentleman from California, Mr. Issa, is recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    Attorney General, December 14, 2010, Brian Terry was gunned 
down, and we began knowing more about Fast and Furious shortly 
thereafter. But you have said, people representing you have 
said repeatedly that you didn't know about it before then.
    I have sent you a number of letters. Senator Grassley has 
sent you a number of letters. You mentioned in your opening 
statement the Speaker's letter. The Speaker did not limit the 
scope of the subpoenas you are under an obligation to respond 
to. He simply asked you for a response to two key areas. He did 
not revoke any subpoenas.
    However, you implied that we were working together, when, 
in fact, since May 18th, nothing--nothing--has come from your 
department, not one shred of paper.
    I want to ask you first of all today, have you and your 
attorneys produced internally the materials responsive to the 
subpoenas?
    Attorney General Holder. We believe that we have responded 
to the subpoenas----
    Mr. Issa. No, Mr. Attorney General, you are not a good 
witness. A good witness answers the question asked. So let's go 
back again. Have you and your attorneys produced internally the 
materials responsible? In other words, have you taken the time 
to look up our subpoena and find out what material you have 
responsive to it? Or have you simply invented a privilege that 
doesn't exist?
    Attorney General Holder. You are saying internally, have 
we----
    Mr. Issa. Internally, have you pulled all that information?
    Attorney General Holder. We have looked at 240 custodians, 
we have processed millions of electronic records, and we have 
reviewed over 140,000 documents and produced to you about 
7,600----
    Mr. Issa. So, 140,000 documents. How many documents are 
responsive but you are withholding at this time?
    Attorney General Holder. Well, we have produced 7,600----
    Mr. Issa. Look, I don't want to hear about the 7,600.
    Ms. Jackson Lee. Mr. Chairman, I would beg to allow----
    Mr. Issa. The lady is out of order. Would the lady please 
suspend.
    Ms. Jackson Lee. Mr. Chairman, a----
    Mr. Issa. This is my time.
    Ms. Jackson Lee [continuing]. Parliamentary inquiry. Excuse 
me, Mr. Chairman. I would beg to allow the Attorney General to 
be able to finish his answer.
    Mr. Smith. The Attorney General will be allowed to answer 
the question.
    Ms. Jackson Lee. I thank the Chairman.
    Mr. Smith. And the Attorney General will have more time to 
do that if we don't have interruptions.
    Mr. Issa. And I would like my time reclaimed that was used 
up by the gentlelady.
    Mr. Smith. You will be given additional time----
    Mr. Watt. Mr. Chairman, I suggest we take back the time 
that Mr. Lungren used, the 2 minutes over his time that he 
used, and----
    Mr. Issa. If you want to give me an additional 2 minutes, I 
am fine with it.
    Mr. Watt. No, I am going to give you the 45 seconds I 
yielded back. But if we are going to apply a rule on one side 
of this aisle----
    Mr. Smith. Let's get back to----
    Mr. Watt [continuing]. Then we ought to apply the rule 
consistently. That is the point I am trying to make.
    Mr. Smith. Let's get back to regular order. The gentleman 
from California has the time, and the Attorney General will be 
allowed to answer the question.
    Mr. Issa. Isn't it true, Mr. Attorney General, that you 
have not produced a log of materials withheld, even though our 
investigators have asked for it?
    Attorney General Holder. I know that--I am not sure about 
that. I know that the----
    Mr. Issa. Okay. I am sure you didn't. So let's move on.
    March 15, 2010, before Brian Terry was gunned down; April 
19, 2010, before Brian Terry was gunned down; May 7, 2010, 
before Brian Terry was gunned down; May 17, 2010, before Brian 
Terry was gunned down; June 2, 2010, before Brian Terry was 
gunned down; July 2, the real date of our independence, 2010--
obviously earlier--before Brian Terry was gunned down.
    These wiretap applications which we did not subpoena but 
which were given to us by a furious group of whistleblowers 
that are tired of your stonewalling indicate that a number of 
key individuals in your Administration in fact were responsible 
for information contained in here that clearly shows that the 
tactics of Fast and Furious were known. They were known and are 
contained in these wiretaps.
    I understand you have read these wiretaps since we brought 
them to your attention. Is that correct?
    Attorney General Holder. I have read them. And I disagree 
with the conclusion you have just reached.
    Mr. Issa. So let me go through a very simple line of 
questioning, if I may, Mr. Attorney General.
    James Cole, Deputy Attorney General, has written that the 
Department has a greater obligation than just checking the 
legal sufficiency in approving wiretap application. He thinks 
that applications also have to comply with DOJ policy. Is that 
correct?
    Attorney General Holder. Applications have to agree with 
DOJ policy?
    Mr. Issa. That is what he said.
    Attorney General Holder. Sure.
    Mr. Issa. Okay.
    During a transcribed interview, Deputy Assistant Attorney 
General Jason Weinstein testified that senior officials 
approving the wiretap applications do not read the wiretap 
applications. Is this practice acceptable to you?
    Attorney General Holder. They read summaries of the 
applications, and that is a process that has been used by this 
Administration and by all previous Administrations. It is the 
way in which the Office of Enforcement----
    Mr. Issa. And are you aware that Federal----
    Attorney General Holder. Let me answer the question.
    Mr. Issa. Are Federal judges, to your knowledge----
    Attorney General Holder. Can I answer my question, the 
question you have asked me?
    Mr. Issa. No. You have given me a sufficient answer 
considering the amount of questions I have and the amount of 
time I have.
    You are okay with that practice? You have already answered 
that.
    So would you agree that senior officials are responsible 
for documents they signed? I would assume the answer is yes.
    So now let me ask you the question. Jason Weinstein, is he 
responsible for what is in these wiretaps?
    Attorney General Holder. Is he responsible----
    Mr. Issa. He is a responsible officer under statute. Is he 
responsible for them even if he only read a summary?
    Attorney General Holder. He did not create those 
affidavits. He did not create that material. He would have been 
a person, as a Deputy Assistant Attorney General, who would 
review the----
    Mr. Issa. So when Congress writes a statute requiring 
certain individuals be responsible, such as Jason Weinstein, 
Lanny Breuer, and yourself----
    Mr. Watt. Regular order, Mr. Chairman. Regular order, Mr. 
Chairman.
    Mr. Issa. I am in the middle of a question.
    Mr. Smith. The Attorney General will be allowed to answer 
this question.
    Mr. Watt. He hasn't asked the question, Mr. Chairman.
    Mr. Issa. I am halfway through it if you will quit 
interrupting.
    If in fact the statute says they are responsible, and if in 
fact they are not read, then in fact----
    Mr. Watt. Regular order, Mr. Chairman.
    Mr. Issa [continuing]. How are the American people to 
understand who is----
    Mr. Watt. Regular order, Mr. Chairman.
    Mr. Issa [continuing]. Responsible for what is contained in 
these documents----
    Mr. Smith. The Attorney General will be allowed to answer 
this question.
    Mr. Issa. Because anyone of ordinary reading, including the 
ATF director, former director, Melson, anyone reading these, 
according to him, would be sick to their stomach because they 
would be immediately aware----
    Mr. Watt. Does he have a question, Mr. Chairman?
    Mr. Issa. So who is responsible, Mr. Attorney General?
    Attorney General Holder. All right. You have really 
conflated a bunch of things here.
    The responsibility----
    Mr. Issa. You have delivered so little in----
    Mr. Watt. Regular order now, Mr. Chairman. Will he be 
allowed to answer the question now?
    Mr. Smith. The Attorney General will be allowed to answer 
the question, but I would appreciate no more interruptions so 
the AG can answer the question.
    Attorney General Holder. The responsibility about which you 
speak is, in fact, the responsibility of a Deputy Assistant 
Attorney General looking at those summaries to make sure that 
there is a basis to go into court and to ask that court to 
grant the wiretap based on a determination that a responsible 
official makes that probable cause exists to believe that a 
wire facility has been used in the commission of a crime. They 
do not look at the affidavits to see if, in fact--to review all 
that is engaged, all that is involved in the operation.
    I have read those now. I have read those. I have read 
those; I have read them from Wide Receiver, as well. And I can 
say that what has happened in connection with Fast and Furious 
was done in the same way as wiretap applications were done 
under the previous Administration in Wide Receiver. I have 
looked at the summaries, and they acted in a way that is 
consistent with the practice and the responsibility that they 
have as defined by the statute.
    Mr. Smith. Thank you, Mr. Issa.
    The gentlewoman from California, Ms. Lofgren, is 
recognized.
    Mr. Conyers. Mr. Chairman? Before----
    Mr. Smith. Does the Ranking Member wish to speak out of 
order?
    Mr. Conyers. If I may, please.
    Mr. Smith. The gentleman is recognized.
    Mr. Conyers. I think that the previous questioning was the 
first note of hostility and interruption of the witness that I 
think has been uncharacteristic of what we have been doing here 
so far today. And I would like to ask the Chair to admonish all 
the witnesses from here on out to please try to--all of the 
Members from here on out to please allow the witness to finish 
his answers.
    Mr. Issa. Would the gentleman yield?
    Mr. Conyers. Of course.
    Mr. Issa. You know, I appreciate that there was hostility 
between the Attorney General and myself.
    Attorney General Holder. Just for the record----
    Mr. Issa. I would hope that the Ranking Member would 
understand----
    Attorney General Holder [continuing]. There was no 
hostility on my part.
    Mr. Issa [continuing]. That, in fact, most of it was 
produced by the fact that I have a great many questions and a 
relatively little period of time in which to get answers, and 
that for a year and a half my Committee, through subpoena and 
interrogatories, has been attempting to get answers for which 
this witness has basically said he asserts a privilege 
without----
    Mr. Watt. Parliamentary inquiry, Mr. Chairman.
    Mr. Smith. The gentleman from Michigan has the time.
    Mr. Watt. Parliamentary inquiry, if the gentleman will 
yield.
    Mr. Conyers. I would like to yield to the Attorney General 
at this point, please.
    Attorney General Holder. Well, with all due respect to 
Chairman Issa, he said there is hostility between us. I don't 
feel that, you know. I understand he is asking questions; I am 
trying to responded as best I can. I am not feeling hostile at 
all. I am pretty calm. I am okay. So, you know.
    Mr. Smith. Let me assure the gentleman from Michigan that 
the Attorney General will be allowed to answer future 
questions.
    And the gentlewoman from California, Ms. Lofgren, is 
recognized for her questions.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And, Mr. Attorney General, thank you for being here with 
us.
    When you were last before us in December, I asked you about 
a case involving the seizure of a domain name called Dajaz1.com 
for alleged copyright infringement. In December, you said you 
were unfamiliar with the case but that you would certainly look 
into it and get back to me. Since that hearing, not only have I 
not heard from you but new details have surfaced. And, 
therefore, I would like to revisit the issue.
    To refresh everyone's memory, Dajaz1 is a blog. It is a 
blog dedicated to discussion of hip-hop music. And in November 
of 2010, the domain name of the site was seized as part of 
ICE's Operation In Our Sites and on an application by 
prosecutors in your department. After the government seized the 
domain name, the owners filed a request for the government to 
return it to them, and under the law the government had 90 days 
to initiate a full forfeiture proceeding against the domain or 
else return the property.
    However, in this case, that deadline passed with no action. 
When the Web site's lawyer inquired with the Department's 
lawyers, he was told the government had filed an extension but 
under seal. The Web site was given no notice, and they were 
never given an opportunity to appear in court and to respond.
    And I have talked to the representative of the Web site, 
and he assures me that he made diligent efforts to try and 
actually appear and make his case. When he asked for proof that 
the extension existed, your department's lawyers basically said 
that he would have to trust them.
    Now, this happened two more times. Finally, in December of 
last year, more than a year after the original seizure, the 
government decided that it didn't, in fact, have probable cause 
to support the seizure and returned the domain.
    Now, we now have unsealed court records, and we know that 
ICE and your department were actually waiting for the Recording 
Industry Association of America, which made an initial 
allegation of infringement, to provide detail, apparently 
proof. And I have reviewed the affidavit--which I would ask 
unanimous consent to put into the record--that in September of 
2011, 10 months after the seizure, the ICE agent was still 
waiting for information from RIAA to give probable cause.
    Now, here is the concern I have. Blogs are entitled to 
First Amendment protection. And I think it is the law that you 
have to have probable cause before you seize things. You can't 
seize things, have secret proceedings in the Federal court, and 
then a year later come up with probable cause.
    So here is my question for you. It looks to me--and, I 
would say, another issue as to Web sites. I mean, this isn't 
like a car that is stolen and is going to disappear, or a bag 
of cocaine. It is a Web site, so the evidence can be completely 
preserved even without seizures. So I think the issue of 
seizure does need to be visited with us.
    But I want to know what the Department's posture is if an 
ICE agent is behaving recklessly in an investigation, as it 
seems to be in this case. Don't the prosecutors in your 
department have an obligation to reject faulty affidavits? Do 
you think that the ex parte process that was included here is 
proper and consistent with the First and Fifth Amendments, to 
seize a domain name that has First Amendment protection for a 
year without any opportunity for the owner to be heard?
    Attorney General Holder. As with all domains that are 
seized or were seized, I guess, in Operation In Our Sites, I 
believe that the seizure that you reference was conducted 
pursuant to a lawful court order, and the procedures that the 
Department followed in that case, including the ex parte 
procedures you mentioned, were consistent with the statutes 
that authorize the seizure and forfeiture and also consistent 
with due process protections that those statutes provide.
    Ms. Lofgren. So you are suggesting that the representation, 
which turned out to be false, under the initial affidavits--
which I again would ask to be made a part of the record--those 
false affidavits were sufficient to have ex parte 
communications and secret proceedings in the Federal court to 
suppress this speech for over a year?
    Attorney General Holder. No, I mean, clearly, if material 
was submitted that was false in an underlying affidavit----
    Ms. Lofgren. Or at least misleading.
    Attorney General Holder [continuing]. Or misleading, that 
would not be an appropriate basis for action on behalf of the 
government.
    The seizure and forfeiture of property is a really powerful 
tool that the government has, and it has to be used 
judiciously. And to the extent that there are problems along 
the lines that you have described, that would be of great 
concern. We should not be in court trying to do the kinds of 
things that I have described here--domain name seizures--if the 
underlying material is not consistent with the facts. That is 
something we shouldn't be doing.
    Ms. Lofgren. Well, as I say, last December you were going 
to get back to me, and I know you have many things to do. But I 
would appreciate, and I will ask again, if I could get a report 
on this specific case. And, certainly, as my colleague, Mr. 
Watt, has mentioned, there are important enforcement issues 
that need to go on. I do not disagree with that. But we also 
have to be very careful about the First Amendment and the Fifth 
Amendment, and I hope that you do not disagree with that.
    Mr. Smith. All right. Thank you, Ms. Lofgren.
    And, without objection, the documents that the gentlewoman 
referred to will be made a part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Ms. Jackson Lee. Mr. Chairman, I have a parliamentary 
inquiry, please.
    Mr. Smith. The gentlewoman will state her parliamentary 
inquiry.
    Ms. Jackson Lee. I appreciate it very much, Mr. Chairman.
    The gentleman from California in his statement about his 
own subpoena mentioned today that he did not request wiretaps 
under seal. And in Mr. Issa's contempt citation, the wiretap 
applications document the extensive involvement of the Criminal 
Division in the Fast and Furious----
    Mr. Smith. Would the gentlewoman state her parliamentary 
inquiry?
    Ms. Jackson Lee. Yes, I will. My question is, did anyone 
review with the Justice Department before this hearing----
    Mr. Smith. That is not a parliamentary inquiry.
    Ms. Jackson Lee.--whether the use of this leaked 
information will harm the Department's ability to bring justice 
to those who violated our laws?
    Mr. Smith. Ms. Jackson Lee, that is not a parliamentary 
inquiry.
    Ms. Jackson Lee. It refers to the questioning of Mr. Issa 
in this hearing. If not, how do we know that the use of the 
information during this hearing, if asked, is consistent with--
--
    Mr. Smith. Ms. Jackson Lee, we are going to have to deduct 
this from your time if you continue. That is not a 
parliamentary inquiry.
    Ms. Jackson Lee. I believe it is, Mr. Chairman. But I hope 
that we have reviewed----
    Mr. Smith. The gentleman from Virginia, Mr. Forbes, is 
recognized for his questions.
    Mr. Forbes. Thank you, Mr. Chairman.
    General, thank you for being here today.
    And I think, despite all the rhetoric, we know that this 
Committee is not asking you to break the law regarding what you 
say or information you provide to Congress. It is just, as you 
know, it doesn't matter if you appear in Congress 7 times or 70 
times, if, when you are asked, you say ``I don't know'' to the 
questions that are most pertinent. Or it doesn't matter if you 
supply 7,000 pages or documents or 700,000 pages if they are 
not the proper papers to answer key questions.
    So I want to begin where you began, and that was the 
standard that you said that you have in the Department, which 
is that every action is guided by law and facts and nothing 
else. I think I stated that correctly. Is that fair?
    Attorney General Holder. Well, certainly when we are at our 
best, that is what happens.
    Mr. Forbes. We know that every Cabinet Secretary doesn't 
adhere to that standard. In fact, we have in a paper today the 
fact that several Cabinet members were required to come to a 
meeting at the Democratic National Committee headquarters, 
where the campaign manager, the top strategist for the 
campaign, the executive director of the Democratic National 
Committee, was there telling them the actions that they should 
take in four items: to help the President win re-election, 
regarding the campaign structure, the importance of the 
Electoral College, and the importance of staying on message.
    The question I want to ask you this morning is, I know that 
you are familiar with David Axelrod, who is Obama's top 
campaign strategist. And to the best of your knowledge, has Mr. 
Axelrod or anybody on his behalf or anybody on behalf of the 
campaign had any discussions with you or members of the Justice 
Department regarding actions that you should or should not 
take, messaging that you should or should not make, or hiring 
decisions that you should or should not support?
    Attorney General Holder. Absolutely not. I mean, one of the 
things that I like a great deal about my interaction with 
people in the White House is that--and I think they take their 
lead from the President--is that they have respected what I 
would call a wall that has to exist between the Justice 
Department and the political operation that goes on in the 
White House. I have not had any of that kind of interaction.
    Mr. Forbes. So there have been some publications out, and, 
of course, we never know whether these publications are 
accurate or not, but at least in one book that claims that you 
and Mr. Axelrod had some type of confrontation when he was 
trying to get you to hire someone. And you are saying that is 
not accurate at all; you have never had any kind of meetings 
with him regarding any hiring decisions at the Department of 
Justice.
    Attorney General Holder. No, we talked about, not a hiring 
decision, we talked about ways in which we might improve the 
ability of the Justice Department to respond to political 
attacks that were coming my way.
    David Axelrod and I are good friends. He is a close friend 
of mine. We have a great relationship. He is a person I respect 
a great deal. We worked together on the campaign while he was 
at the White House. But he has never done anything that I would 
consider inappropriate.
    Mr. Forbes. But, then, what you are saying is you have had 
contact with Mr. Axelrod, campaign strategists, about how you 
should handle different attacks coming to you as Attorney 
General, correct?
    Attorney General Holder. Yeah, I mean, there is a political 
dimension to the job that I have as Attorney General. I mean, 
the reality is that I don't sit up in an ivory tower and just 
do law enforcement. I am the subject of attacks. I am a person 
who was seen by some as pretty controversial. And there are 
times, or at least there was that time, when I was looking for 
some help in that regard.
    Mr. Forbes. So you have had those discussions. Did he ever 
try to encourage you to hire or put any particular person at 
the Department of Justice?
    Attorney General Holder. No.
    Mr. Forbes. With Fast and Furious, there has been a lot of 
discussions about it, and we know that is a big item not just 
for us, but the Ambassador to Mexico has said that that 
operation, which took place under your watch, has poisoned the 
Mexican people and really put a strain on strides we have made 
in two successive Administrations in the United States. He has 
been concerned that the investigation hasn't been completed.
    Have you ever had any consultation with the White House or 
anyone with the campaign or with Mr. Axelrod about messaging 
related to Fast and Furious?
    Attorney General Holder. About messaging with regard to 
Fast and Furious?
    Mr. Forbes. Yes. Comments that were made, how you were 
going to message it, any of that.
    Attorney General Holder. Well, we have certainly talked 
about the way in which we could deal with the interaction 
between the Justice Department and Congress, about ways in 
which I would, we would----
    Mr. Forbes. But nothing about press messaging at all?
    Attorney General Holder. Well, I mean, in terms of trying 
to get a message out that was consistent with the facts and 
make sure that it was done in an appropriate way, I have had 
conversations like that with people in the White House 
Counsel's Office.
    Mr. Forbes. Okay.
    Just two other quick questions. I know that you have filed 
actions against Arizona, South Carolina, Utah, and Alabama--all 
Republican Governors. My time is up. Would you give us a list 
of any similar actions of a similar profile you have filed 
against any Democratic Governors--States with Democratic 
Governors.
    And, also, the final thing is, if you will let us know if 
you had any relationship or meetings with the White House and 
members of the campaign about any of the messaging or any of 
these actions that took place on that.
    And, Mr. Chairman, my time has expired.
    Mr. Smith. Thank you, Mr. Forbes.
    Attorney General Holder. One thing in regard to the 
question of the Governors, I am not sure that there has been a 
photo ID attempt made by a State run by a Democratic Governor.
    Mr. Forbes. No, no, I wasn't asking about photo IDs. I 
think, if you look at these States, they were regarding, I 
think, immigration policies. But any action that you have taken 
against a Democratic Governor of a similar high profile with an 
investigation----
    Attorney General Holder. Well, I think with regard to the 
immigration laws, as I understand it--and I can check, but I 
don't think that there has been a similar immigration attempt 
made by States run by Democratic Governors, which would be the 
reason why we have not opposed them. But I will check, and we 
will share that information with you.
    Mr. Forbes. And, also, Mr. Attorney General, when you 
check, if you would make sure you let us know the contacts you 
had with Mr. Axelrod regarding any messaging or anything that 
might come regarding those actions.
    Thank you.
    Mr. Smith. Okay. Thank you, Mr. Forbes.
    The gentlewoman from Texas, Ms. Jackson Lee, is recognized 
for questions.
    Ms. Jackson Lee. I thank the Chairman, and I thank the 
Ranking Member. And I certainly thank the Attorney General for 
his service.
    I just wanted to add what I don't think, very quickly, was 
in the introduction of the Attorney General. And then my series 
of questions, Mr. General, without any disrespect will be 
bullet-like, not toward you but questioning, so that I can get 
a series of questions in.
    But I did note that you were a Deputy Attorney General 
under the Bush administration. You continued to serve, I think, 
through the time that you were appointed under President Obama. 
Is that correct? Did you remain during that time?
    Attorney General Holder. Little-known fact: I was George 
Bush's first Attorney General.
    Ms. Jackson Lee. I think that should be made clear for the 
record, because you have had a continuous public service 
commitment. You were in the private sector for a moment, but 
between a judgeship and the superior court, that I understand 
you were appointed by President Ronald Reagan at that time. Is 
that correct, Mr. Attorney General?
    Attorney General Holder. That is correct.
    Ms. Jackson Lee. Let me thank you again for your service 
and ask a series of questions.
    I will be giving to you today, June 7th, a letter to ask 
for the investigation of the State of Texas for its purging of 
1.5 million voters. And I encourage and hope that there will be 
a speedy review inasmuch as we are in a process of election, a 
November 2012 election. And I do want to just ask the 
questionon this issue of voting. And my good friend from 
California wanted to establish certain rights, egress, ingress, 
but the protection of access under the First Amendment.
    And I want to just focus, if you wanted to petition your 
government and use no government ID, most could either take 
their vehicle, hitch a ride, but they would not be totally 
prohibited from exercising that constitutional right. And you 
made a point about fundamental right, but if you were denied 
the right to vote, there is no alternative, is there not? There 
is no other way--maybe you could get a bullhorn in the middle 
of the street, but there is no way that you could impact the 
choice of those who will govern.
    Could you just be very quick on that answer, please?
    Attorney General Holder. No, I think that is right. If you 
want to directly impact governmental policy, who is setting 
those policies, that is directly tied to the ability to vote, 
to cast a ballot.
    Ms. Jackson Lee. So do you believe it is a legitimate duty, 
action of the Division on Civil Rights of the Department of 
Justice, operating under existing current law, to assess issues 
of purging or the impact of the voter ID law?
    Attorney General Holder. Absolutely. We apply the law that 
was passed by this Congress as early as 1965, reauthorized as 
recently as 6 years ago, overwhelmingly by Congress----
    Ms. Jackson Lee. Are you going outside the bounds of the 
law when you, in essence, review Florida or Texas or Ohio or 
Indiana, the case preceding the Indiana case? Are you outside 
the boundaries, as you can assess?
    Attorney General Holder. All we are doing is applying the 
law that exists and has existed for over 40 years now.
    Ms. Jackson Lee. With respect to the affordable care 
decision which is pending, but I just want a simple question. 
Do you feel that there was an adequate review--and the decision 
ultimately rested with the Supreme Court, which I think has 
done a decent and fair job on recusals with respect to Justice 
Kagan. Could you have done anything more than what was 
appropriately done by the Justice Department?
    Attorney General Holder. With regard to the recusal issue?
    Ms. Jackson Lee. Yes.
    Attorney General Holder. I don't think that we should have 
done any more. The question of recusal, I think, is something 
best brought up by the litigants in the case. They had that 
opportunity; I don't know if they raised it or not. But I think 
the Justice Department has done all it can, certainly 
responding to FOIA requests. And all information that I think 
appropriately can be shared has been shared.
    Ms. Jackson Lee. I appreciate it.
    We are certainly saddened by the loss of life that was 
resulted by the Fast and Furious. I think you have said that 
often. And are you aware of the report produced by Ranking 
Member Elijah Cummings?
    Attorney General Holder. Yes.
    Ms. Jackson Lee. And were you aware that in the--do you 
believe that under this report that his staff and Ranking 
Member Cummings of the Oversight Committee extensively reviewed 
either the 7,600--or at least the whirl of information that was 
given?
    Attorney General Holder. Yes, I think they did a good job 
of reviewing the information. They produced a good report that 
contains a number of reforms that we have tried to implement.
    Ms. Jackson Lee. Quickly, the statement says that they 
found no politically motivated operation, that Fast and Furious 
was not conceived and directed by high-level Obama 
administration political appointees at the Department of 
Justice. Would you concede that they would have the basis to 
say that?
    Attorney General Holder. I think if one looks at the 
documents, that statement is manifestly true.
    Ms. Jackson Lee. Can I ask you, as well, to investigate and 
are you concerned or have you seen the impact of single-race-
based juries in a number of cases? This has been an issue in a 
number of areas, particularly in the South, in cases that are 
particularly sensitive.
    I am going to ask you to investigate the Chad Holley case, 
which is a beating incident that occurred in Houston, Texas, 
and the series of trials that are coming forward. But, in 
particular, one case was tried by a single-race jury and, of 
course, resulted in the acquittal. Would you please take this 
as an official request for the Justice Department to 
investigate the beating and the resulting trial that was a 
single-race jury in the case of Chad Holley?
    Attorney General Holder. I mean, the Supreme Court has 
recognized that the selection process--that a deliberate 
attempt at creating a jury of a single race, under the Batson 
case, is not appropriate.
    I am familiar with the Holley case, not intimately familiar 
with it, but I am familiar with the Holley case. And that is 
something that we are in the process of determining what course 
of action we should take.
    Mr. Smith. Mr. Attorney General, a number of Members today 
have made requests from you of information. When can they 
expect those requests to be responded to? Within 2 weeks or so?
    Attorney General Holder. We will do the best that we can, 
and quickly as we can. I am a little surprised that we have not 
responded at least to some of the things that have been raised 
in connection with the last time that I was here----
    Mr. Smith. Uh-huh.
    Attorney General Holder [continuing]. But we will try to do 
a better job than that.
    Mr. Smith. Okay.
    Ms. Jackson Lee. I thank the Chairman.
    Thank you, Mr. General.
    Mr. Smith. Thank you, Ms. Jackson Lee.
    The gentleman from Iowa, Mr. King, is recognized.
    Mr. King. Thank you, Mr. Chairman.
    Thank you, Attorney General, for being here to testify 
today.
    Just in picking up on the Chairman's remarks, I would point 
out that I had a series of questions that I asked December 8th 
here. And although we haven't pressed relentlessly for those 
responses, I haven't seen them. And so I am going to be 
submitting a new request from December 8th and then 
additionally here for this today, I believe.
    But I think, first of all, there is one piece left on the 
Fast and Furious I would just ask you, that--can you tell me 
when you first started to doubt that the original letter was 
inaccurate? Can you tell me what piece of information caused 
you to do that?
    Attorney General Holder. Yeah, I mean, I think my first 
doubts happened just before, or just about the same time that I 
asked for the inspector general to conduct a report. As I 
listened to media reports and things I was getting from Senator 
Grassley, I had some--that is when I think my doubts first 
began about the accuracy of the February 4th letter.
    Mr. King. Was there a piece of information, though, in 
particular in those media reports that caused you to doubt, or 
just the information itself? You thought you had to look into 
it?
    Attorney General Holder. I am not sure I can remember 
anything specific. But I do remember that the reports were 
inconsistent with what I was hearing from people within the 
Department and also inconsistent with what Senator Grassley was 
telling me in a letter I think that he sent to me, like, on 
February 9th or something like that.
    Mr. King. Okay. Yeah, I have a February 4th letter denying 
ATF ever walked guns. That was from 2011. I don't have the date 
of Senator Grassley's letter, but that letter was formally 
withdrawn on December 2, 2011. That is consistent your 
testimony, though, I recognize. And I thank you.
    And then I would take us back to the Pigford issue and the 
discrimination issues that we discussed the last time, General 
Holder. And now--we discussed Pigford then, and I posed the 
question that, in the farm bill of 2008, consistent with, I 
believe, your testimony and also a statement made personally to 
me by Secretary Vilsack, that the farm bill authorized the 
negotiations in the agreement that ultimately lays out in the 
terms of $1.25 billion to be distributed to Black farmers who 
have claims of discrimination. And the authorization within the 
farm bill is $100 million, and that is to cap that for all of 
the settlements that are there.
    And now I see that not only is it not capped at $100 
million, it has been expanded to $1.25 billion, and that we 
have three other cases out here since that period of time: 
Garcia v. Vilsack, Keepseagle v. Vilsack, Love v. Vilsack. And 
when I total them up, it is $1.33 billion in this order, 
Garcia; $760 million, Keepseagle; $1.33 billion, Love--
coincidence, I suppose, $1.25 billion, Pigford; for a total of, 
all together, $4.93 billion poised to--either having been 
distributed or poised to be distributed under these 
discrimination cases, a lot of it, $3.58 billion, coming out of 
the judgment fund.
    And can you tell me how much is in the judgment fund, and 
is--I am going to ask you to produce a report of the funds that 
come in and the funds that are distributed out of the judgment 
fund. I think this Congress needs an oversight if we are 
dealing with numbers that are approaching $5 billion.
    Attorney General Holder. What I can say is that those 
settlements that were reached, we set pools of money that can 
be tapped if people can prove that, in fact, they were 
discriminated against. There is certainly an unfortunate 
history of discrimination that I think everybody acknowledges 
exists between the Department of Agriculture in dealing with 
farmers of a variety of ethnicities and genders, and the 
attempts at structuring these settlements was to deal with, 
redress those wrongs.
    Mr. King. But $5 billion in round figures, 4.93 billion, 
that is a big chunk of money to be distributed without 
congressional oversight. And do you have any resistance to 
Congress taking a look at that data, the contingency fees and 
the distributional amounts, and the sources of that money and 
the amounts?
    Attorney General Holder. No, I mean, I think that is 
legitimate oversight to talk about the way in which the cases 
were settled, how it impacts the judgement fund.
    Mr. King. Thank you. But then I will follow up with a more 
specific question, but I want to also ask you about your 
reaction when you saw the video of the young man who claimed 
your ballot here some months ago, and your reaction toward 
requirement for a photo ID after you saw that video.
    Attorney General Holder. Yeah, I mean, it is an attempt to 
show something, I suppose, but I think what I drew from that 
video was that that guy was very careful not to say he was Eric 
Holder, not to actually get a ballot. He didn't do the kinds of 
things that would have subjected him to criminal prosecution.
    Mr. King. And I am not worried about that, but he could 
have obtained your ballot with ease. It was offered to him. And 
so I just suggest this, that it may not be impossible, but I 
think it has been determined here today in the questioning of 
Mr. Lungren that visiting a Federal building, even your 
building, is maybe not impossible, but difficult without a 
picture ID. And if it is difficult or impossible to visit a 
government building without a photo ID, then how can we allow 
someone to help choose our government without a photo ID?
    Attorney General Holder. I think the question is if you 
look at, for instance, South Carolina, they had in place 
measures that protected the integrity of the ballot before they 
went to the photo ID. And I don't per se say that photo IDs are 
necessarily bad. The question is how the structure is put in 
place, how they are distributed, whether or not it has a 
disproportionate impact on people of a certain race, certain 
ethnicity, a certain age group.
    Mr. King. Well, why would it?
    Mr. Smith. The gentleman's time has expired. Thank you, Mr. 
King.
    The gentlewoman from California Ms. Waters.
    Ms. Waters. Thank you very much.
    We would like to welcome you, Mr. Attorney General. I have 
a number of questions I wanted to ask you, but my attention has 
been diverted to the line of questioning from Congressman 
Goodlatte.
    It is well known that you dismissed the charges that were 
placed against Senator Stevens following your investigation 
that indicated that certain exculpatory evidence had been 
withheld. Now, was there just one thing or were there several 
things that were done that you disagreed with that caused you 
to dismiss?
    Attorney General Holder. The thing that was the main 
motivator for my decision to dismiss the case was I thought the 
pretty solid evidence that we had uncovered, Brady material, 
exculpatory material, had not been shared with the defense. And 
I think that was the basis, the main motivation for my deciding 
to dismiss the case.
    Ms. Waters. And it seems that--I think his name is 
pronounced Mr. Schuelke, S-C-H-U-E-L-K-E.
    Attorney General Holder. Ed Schuelke.
    Ms. Waters. Agreed with you basically, but the punishment 
now does not seem to match the crime, prosecutorial misconduct. 
And a lot of people are wondering how does the Office of 
Professional Responsibility literally dispute the seriousness 
of the withholding of the exculpatory evidence? How do you 
account for that?
    Attorney General Holder. I wouldn't agree that they don't 
take it seriously. Mr. Schuelke, who I know and respect as a 
good lawyer, came up with a report and said that he thought the 
material was withheld intentionally. The OPR report, which was 
about 700 pages long, says the information was withheld, but 
says it was done recklessly, not intentionally. And it was on 
that basis that the OPR recommendation was made as to what the 
appropriate sanction was.
    Mr. Schuelke never made a recommendation as to what he 
thought the appropriate sanction should be, because I think, as 
Judge Sullivan said, there was not an order that he could 
actually point to so that he could find contempt or something 
like that.
    So I think that is the difference between the Schuelke 
report and the OPR report, the state of mind of the person who 
was engaged who did not turn over the information, or people 
who didn't turn over the information.
    Ms. Waters. So in your opinion, do you believe that the 
recommendations for punishment by the Office of Professional 
Responsibility, are those recommendations basically in line 
with the unintentional withholding, or perhaps it could have 
been stronger? What do you think?
    Attorney General Holder. Well, I think it is appropriate 
for the Attorney General not to comment on these determinations 
because it is something that is not my responsibility to do. We 
put that in the hands of the career people. We have a great 
OPR, great Office of Professional Responsibility. We have a 
structure in place so that people outside of OPR look at the 
findings of OPR and then make a determination as to what the 
appropriate sanctions should be, and the people who are 
political in nature are really insulated from that process.
    Ms. Waters. So I suppose what we can conclude is that you 
dismissed; you felt that the withholding of the information was 
serious enough to dismiss?
    Attorney General Holder. Yes.
    Ms. Waters. And I asked, I think, earlier was there leaking 
of information, was there sharing of information with others 
that it should not have been shared with in addition to the 
withholding of information?
    Attorney General Holder. No. As I remember it, the concern 
that I had was with the nonproviding of information that the 
defense was entitled to. That was the concern that I had.
    Ms. Waters. And so clearly you addressed that concern, but, 
again, after having addressed it, the Office of Professional 
Responsibility had the responsibility to determine what the 
punishment should be, and you have no hand in that; is that 
right?
    Attorney General Holder. That is correct.
    Ms. Waters. Okay. Well, I just wanted to get on the record 
that the withholding of the evidence was a serious matter, and 
that you made a decision based on that.
    Attorney General Holder. I would agree with you. Whether 
you agree with Mr. Schuelke or OPR, whether it was intentional, 
or reckless, negligent, it was serious and I think necessitated 
the dismissal of the case, which is what I did.
    Ms. Waters. Thank you very much.
    I yield back the balance of my time.
    Mr. Smith. Thank you, Ms. Waters.
    Does the gentleman from Virginia Mr. Scott have a unanimous 
consent request?
    Mr. Scott. Yes, thank you, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent to enter into the 
record letters from the National Organization for Black Law 
Enforcement Executives, City of Philadelphia Police Department, 
Boston Police Department, and Association of Prosecuting 
Attorneys on behalf of the Attorney General; and also a copy of 
the draft contempt citation--we were questioning what had been 
asked for--draft contempt citation offered by the Committee on 
Oversight and Government Reform, which says in part, ``The 
wiretap applications document extensive involvement of the 
Criminal Division in Fast and Furious, yet the Department of 
Justice has failed to produce them in response to the 
Committee's subpoena,'' so that we know exactly what was asked 
for.
    Mr. Smith. Without objection, those documents will be made 
a part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Smith. The gentleman from Arizona Mr. Franks is 
recognized for questions.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, General.
    Mr. Holder, on April 27, 2011, Members of this Committee 
asked you to give us information surrounding the decision by 
Justice to forego prosecution of the unindicted coconspirators 
in the Holy Land Foundation case. This is the largest terrorism 
finance case, of course, in U.S. history. You refused to comply 
with this request, and you still have not produced, or you are 
still not prosecuting despite there being what many consider to 
be a mountain of evidence against these Jihadist groups, at 
least one of which now says it is working inside your agency to 
help advise on the purge of counterterrorism training 
materials.
    We are told that this mountain of evidence which outlines 
the Jihadist network within the United States amounts to 80 
bankers' boxes full of documents. This evidence was turned over 
to the court, and much of it was given to the Jihadist defense 
lawyers.
    Members of this Committee and other Committees would like 
to review this evidence, whether it has to be on a classified 
basis or not. Would you commit today to give us and provide us 
with those documents which comprised the government's case in 
the Holy Land Foundation trial?
    Attorney General Holder. It is hard for me to answer that 
question. I don't know----
    Mr. Franks. No, it is not to answer, it is just will you, 
or will you not.
    Attorney General Holder. I don't know what the nature of 
the evidence is. I don't know if it is grand jury material, I 
don't know if it is wiretap information. There are a variety of 
things that I would have to look at.
    I can certainly take your request, and we can check to see 
what the nature of the evidence is and make a determination 
about whether it is appropriate for that material to be 
reviewed. I just don't know.
    Mr. Franks. Well, we made the request on April 27 of last 
year, and so far it hasn't happened. So I would like to make 
the request. And would you give us your best efforts basis 
that--your good-faith effort that you would give that 
information to us if you can do so?
    Attorney General Holder. I will certainly make a good-faith 
effort to look at the request that you have made and see 
whether or not it can be complied with.
    Mr. Franks. Well, I guess I would hope that you would also 
give us some explanation as to why the request has been ignored 
thus far.
    Let me shift gears on you here. It has been reported that 
multiple agencies, including the FBI, are now purging 
counterterrorism training materials of information outside 
groups might find offensive, including discussion of things as 
fundamental as that, quote, ``al Qaeda is a group that endorses 
violent ideology that should be examined,'' unquote. That is 
one example.
    Per the new guidelines FBI agents may no longer discuss 
this in their training sessions because it offends some people, 
and it has been purged. And this strikes me as the sacrificing 
of vital national security, the muzzling of our national 
security apparatus on the altar of political correctness. And 
this concern, I think, General, seems warranted given that the 
bipartisan Senate report on the Fort Hood massacre, to quote 
them, ``the worst terrorist attack on U.S. soil since 9/11,'' 
found that, quote, ``political correctness inhibited officials 
from taking actions that could have stopped the attack.''
    Now, members of multiple Committees are now investigating. 
Has anyone inside your agency coordinated with any other 
Federal agencies such as DOD, DHS or the Department of State to 
carry out this review of counterterrorism training materials?
    Attorney General Holder. Well, let me say first off that 
the decisions that were made by the FBI with regard to what use 
would be made of certain materials is not based on political 
correctness or whether or not something is offensive. The 
search was for materials that were simply incorrect, that 
stated--had assertions about particular things that were simply 
wrong, and we didn't think that was appropriate to be included 
in the training materials.
    Bob Mueller has taken this very seriously. But I can tell 
you, if anybody knows Bob Mueller, he is not making the 
determinations on the basis of what is either offensive or 
politically correct. That is not the driver in this attempt to 
make sure that our training materials are accurate.
    Mr. Franks. So has anyone inside your agency coordinated 
this effort such as it is, whatever it might be, with DOD, or 
DHS or the State Department?
    Attorney General Holder. Well, I am not sure that we 
necessarily have to. We obviously interact with our partners 
all the time in a variety of ways. The Deputy Attorney General 
issued some guiding principles to all DOJ component heads and 
U.S. Attorneys to make sure that these training materials were 
accurate.
    We interact with our partners all the time, and it is on 
that basis, among other things, that we have an ability to 
decide what materials are accurate.
    Mr. Franks. Well, it is one of two things. Either your 
position is that no one in your agency has spoken with or met 
with other agencies or the White House in carrying out this 
purge of vital counterterrorism materials, or they have. And if 
they have, who directed that these agencies in general to purge 
these materials? And what outside groups are advising the 
Department on the issue?
    Attorney General Holder. This is an internal process being 
done by members of the FBI, members of the Justice Department 
who are steeped in this----
    Mr. Franks. Can you tell us what outside groups are 
advising you on this process?
    Attorney General Holder. This is something that is being 
run primarily out of the FBI. I mean, to the extent there are 
outsiders who are involved, who we are trying to interact with, 
perhaps we can try to get you those names.
    Mr. Franks. I will leave it right there. I just 
respectfully officially ask you to give us the list of who the 
outside groups are that are working with you on the process, 
because one of them is a Jihadist group that says they are 
working with you on it. And I just want to make that----
    Attorney General Holder. I don't believe that exactly. But 
I will relay the request to the FBI.
    Mr. Franks. All right. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Franks.
    The gentleman from Illinois Mr. Quigley is recognized for 
questions.
    Mr. Quigley. Thank you so much, Mr. Chairman.
    Sir, it is, as you know, very hard to minimize or diminish 
the tragedy that is Fast and Furious, a horribly ill-conceived 
program that led to the loss of life of an agent, endangered 
others. And as you agree, there must be a continued thorough, 
independent investigation. Justice must be done; corrections 
must be made, and I believe have been made.
    But with the greatest respect, I would say that I believe 
that the effort here has become politically motivated in an 
attempt to embarrass the Administration, and that diminishes 
the process. The operative phrase that comes to mind since 
``bad witness'' has been used is ``Pay no attention to the man 
behind the curtain.''
    Mr. Attorney General, welcome to Oz. Pay no attention to 
the fact that this process began under a previous 
Administration. Pay no attention that the agencies lack 
sufficient resources. Pay no attention that the head of the ATF 
hasn't been allowed to be appointed. Pay no attention that the 
laws are inadequate to protect agents and citizens on both 
sides of the border; even more specifically that in Arizona any 
citizen may purchase an unlimited number of AK-47s and transfer 
them within the State in private sales; that Special Agent 
Peter Forcelli in the Phoenix Field Division testified at a 
pervious hearing that as it relates to straw purchasers and 
punishments, he used the expression, quote, ``Some people view 
this as no more consequential than doing 65 in a 55.''
    And as it relates to the gun show loophole, we recognize 
the fact--and others would ask you to pay no attention--you can 
buy any type of gun you want without any background check. You 
could be adjudicated as dangerously mentally ill, you could be 
a felon, you could be on your third order of protection, you 
could be on a terrorist watch list, and you can buy what you 
want.
    In terms of resources, the Washington Post said in 2010 the 
ATF has the same number of agents it had in 1970, while the FBI 
has grown by 50 percent and DEA by 233 percent. I am glad those 
agencies got the growth they need because they make us safer, 
but ATF does as well.
    And finally, pay no attention to the fact that Special 
Agent Peter Forcelli of the ATF said, I have less than 100 
agents assigned to the entire State of Arizona. That is 114,000 
square miles. Do we have the resources? No, we don't. End of 
quote: We desperately need them.
    So, Mr. Attorney General, life is unfortunately, even after 
tragedy, is about moving on. I ask you in a perfect world what 
other situations and resources that you and other agencies have 
to combat the threats that are still going on, the fact that 
people are still dying from gun violence in the border area?
    Attorney General Holder. Yeah, it is an issue that we have 
to confront. Recent studies have shown that of the 94,000 guns 
that were seized in Mexico, 64,000 of those guns can be traced 
back to the United States.
    I think there are a number of steps that Congress could 
take to help us in connection with this fight. We need a 
comprehensive firearms-trafficking statute. We need tougher 
sentences for straw purchasers, so you don't have that 65-, 55-
mile-an-hour thought. We need to give ATF the resources that it 
needs. In fiscal year 2011, Congress cut our request for 14 
project gunrunner teams in half. It decreases our capacity to 
do these kinds of things. And I think that Congress should not 
attempt to block the long gun reporting requirement that has 
recently been upheld by a Federal court that would require 
somebody buying multiple AK-47s over a 5-day period to have 
that information simply shared with the ATF. That is a valuable 
intelligence tool and has helped us while it has been in place 
in only four border States to develop leads and deal with the 
situations that you have described.
    Mr. Quigley. If I might switch gears briefly, I come from 
Illinois, I come from Chicago. It is important to recognize the 
gentleman stepping down from the attorney general's position in 
Chicago has left an extraordinary legacy. I want to commend his 
efforts, and I will give you the opportunity to do the same if 
you will.
    Attorney General Holder. I have known Pat Fitzgerald since 
he was a line lawyer in the Southern District of New York and 
working on really consequential and important terrorism cases. 
I admired his work then. He has been an outstanding U.S. 
Attorney in two Administrations. He is a true patriot. He has 
been a great U.S. Attorney. He has focused on public corruption 
matters as well as national security matters. He has, in fact, 
been a model U.S. Attorney and somebody who is going to be 
sorely missed by us in the Justice Department.
    Mr. Quigley. Thank you, sir.
    I yield back.
    Mr. Smith. Thank you, Mr. Quigley.
    The gentlelady from Texas Ms. Jackson Lee is recognized for 
a unanimous consent request.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies.
    Unanimous consent to submit into the record a report of the 
minority staff of the Oversight and Government Reform dealing 
with Fast and Furious. I ask unanimous consent a statement on 
the draft contempt citation of the oversight committee, a 
letter regarding the purging of voters, and a letter regarding 
race-based juries. I ask unanimous consent to submit it into 
the record.
    Mr. Issa. Reserving the right to object.
    Mr. Smith. The gentleman reserves the right to object and 
can be heard on his objection.
    Mr. Issa. I have no objections to the latter material, but 
in the case of the former material, I would ask unanimous 
consent that if we are going to enter one side of any document 
from another Committee if you want it into the record, that 
corresponding documents be allowed to be paired in so as to 
give a complete report.
    Mr. Smith. Without objection, the documents mentioned by 
the gentlewoman----
    Ms. Jackson Lee. And I have no objection.
    Mr. Smith [continuing]. From Texas will be made a part of 
the record, and the documents referred to by the gentleman from 
California will be made a part of the record.
    [The information referred to follows:]
         Material submitted by the Honorable Sheila Jackson Lee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                               __________
            Material submitted by the Honorable Darrell Issa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Smith. We will now go to the gentleman from Texas Mr. 
Gohmert for his questions.
    Mr. Gohmert. Thank you, Mr. Chairman.
    So you know where I am coming from, Mr. Attorney General, I 
have been a prosecutor. I have been a district judge handling 
felonies including death penalty case. I have been a chief 
justice of a court of appeals. I have been appointed to defend 
cases I didn't want to defend, but I did my very best job and 
did it well.
    I have had people come before me who were friends that I 
have sent to prison because that was consistent with justice of 
what I would have done to someone in their situation who was 
not a friend. I have sentenced the children of friends with a 
courtroom full of my supporters who were all begging me not to, 
but I knew if I was going to be consistent in justice, I had to 
do that. I have sent people to prison because it was the fair 
and just thing when considering all of the facts and 
considering what had been done in the past. And then I have 
gone in my office after sentencing and wept because of the 
personal anguish of those that I cared deeply about, but I knew 
I did the right thing, and history has borne me out.
    So when I hear an Attorney General of the United States 
come before us and say somewhat cavalierly there is a political 
aspect to this office, it offends me beyond belief. Your job is 
justice, Mr. Attorney General. It is justice across the board, 
and that is what has been so troublesome around here.
    When we made a request a year ago here for the documents 
that your Department has produced to people who were convicted 
of supporting terrorism, they are terrorists, and we wanted the 
documents you gave to the terrorists, we are a year later, and 
we still don't have them. Why in the world would your 
Department be more considerate of the terrorists than of the 
people who are Members of Congress who can vote to just 
completely defund your Department? It makes no sense.
    So I will ask again, and there is no room for a response 
that, well, it is an ongoing investigation; well, some of these 
may be classified. I am asking for the documents your 
Department produced to the terrorist supporters convicted in 
the Holy Land Foundation trial. Can we get those documents, 
just the ones that you gave to the terrorist defendants?
    Attorney General Holder. Well, certainly you can have 
access to those things that are on the public record and that 
were used in the trial.
    I was also a judge, I sat in this Washington, D.C.----
    Mr. Gohmert. So is that a yes or no that we will get those 
documents?
    Attorney General Holder. As I said, I was also a judge and 
understand the anguish that you go through. And just let me 
clear up one thing with regard to the political aspect of this 
job. I have to advance or try to advance legislation that I 
think is appropriate for the Department. That is a political 
job. I have pushed policy initiatives before the Department. 
That is a political component. I fight defunding requests that 
people kind of cavalierly throw around about the budget of this 
Department. That is, from my perspective, a political component 
of this job.
    Mr. Gohmert. Sir, it is not cavalierly. When a Department 
has parts of it that are not doing their job, and, in fact, may 
be giving more aid and comfort to people who are part of 
organizations who want to bring about an end to our way of 
life, then that concerns me that perhaps that is an area that 
should be defunded.
    And when you have been here before, and we talked about 
Fast and Furious, and you are asked who actually authorized 
Fast and Furious, you had said, we may not ever know who 
authorized Fast and Furious. Are you any closer right now as 
you sit here to knowing who authorized Fast and Furious?
    Attorney General Holder. I suspect that we are closer, 
given the fact that the inspector general is charged with the 
responsibility of investigating this matter at my request, has 
been in the field and been interviewing people. And my guess 
would be that we are closer to that. I would expect that report 
will be out relatively soon.
    Mr. Gohmert. Did you not ever go back to your office and 
say when you found out about Fast and Furious, I demand to know 
who authorized this? Are things so fast and loose in your 
office that somebody can authorize the sale to international 
criminals of American guns that are bringing about the death of 
even American agents, and nobody has to do that in writing?
    Mr. Chabot. [Presiding.] The gentleman's time has expired, 
but you can answer the question.
    Attorney General Holder. What I did do, I asked the 
inspector general to conduct an investigation. I put an end to 
the policy that led to the Fast and Furious debacle. I made 
personnel changes at ATF and in U.S. Attorney's Office. We made 
changes in the procedures there. And that is in stark contrast 
to what happened to my predecessor Attorney General Mukasey 
when he was briefed about the transmission of guns to Mexico 
and, as far as I can tell, did far less than what I did.
    Mr. Gohmert. Sir, that was a different aspect.
    Attorney General Holder. If you want to look at what I did, 
those are simply the facts.
    Mr. Gohmert. My question, though, Mr. Chairman, was did you 
go back and say, I demand to know who authorized this Fast and 
Furious program? That was the question.
    Attorney General Holder. That is consistent with me telling 
the inspector general, find out what happened here. So the 
answer to your question is yes.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Georgia Mr. Johnson is recognized for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    On May 12, the House passed its Commerce-Justice-Science 
appropriations bill, and this is a part of the Ryan budget. And 
it tries its best to eviscerate and neuter the ability of the 
Justice Department to protect Americans, as it is supposed to 
do. You can't operate without money, and the bill, in its 
attempt to neuter the Department, cuts funding for financial 
and mortgage fraud enforcement, it prohibits funding for 
enforcing the requirement that licensed firearms dealers report 
multiple sales of rifles to the same person, it prohibits 
funding to bring actions against States for their voter 
identification law, among other things.
    The bill would cut funding for the general administration 
line on the DOJ's budget request from $81 million to 45 
million--excuse me, yes, $29 million less than requested. The 
DOJ program for rescissions and asset forfeitures has been cut. 
The number of U.S. Attorneys, you will have 1,000 unfilled 
positions, and you have already lost thus--attorneys, you have 
already lost 850 staff since the hiring freeze that was 
instituted in January of 2011 has gone--since that went into 
effect, and this bill could result in an additional 411 
positions lost. The Antitrust Division is cut $5.2 million. You 
could lose up to 70 positions in that unit. You have already 
lost 77 positions in that unit. That is the unit that keeps 
consumer prices low and gets at collusion and bid rigging and 
other activities that cost money to consumers--cost consumers 
money. The U.S. Trustee Program, which you administered, which 
is so important in bankruptcy, which are on the rise, you are 
seeing a 5 percent reduction; 50 positions may be suspended. 
Law enforcement wireless communications for the Department has 
been cut. The ability to hire people in foreign language, 
skilled in foreign languages, has been cut. These things hurt 
the Department's ability to be effective.
    I want to get to that part about the voter identification 
laws. You were answering a question that was posed to you by 
Mr.--from Iowa, Mr. King, but you were cut off by the bell, and 
you were not given a chance do complete your statement on that. 
Can you complete it now, please?
    Attorney General Holder. I will be honest with you, I don't 
remember where I was.
    Mr. Johnson. It had to do with the South Carolina challenge 
of your Department to their voter ID laws.
    Attorney General Holder. All I can say is that with regard 
to the South Carolina law, we looked at the evidence that was 
provided to us by South Carolina; did not feel that the 
evidence about voter fraud was substantial enough to overcome 
the disproportionate impact that the changes in their voting 
procedures had on minorities, older people, young people. It 
was on that basis and under section 5 of the Voting Rights Act 
that we decided to file suit looking to not preclear, which 
they had tried to do.
    Mr. Johnson. So basically you were stating, or you have 
stated, that the reason that South Carolina gave for making it 
tougher to vote through voter ID requirements, the reason that 
they did that, which is to get at voter fraud, did not hold any 
water. In other words, there was insufficient evidence of voter 
fraud, and so, therefore, there must have been some other 
intention behind their legislation to make it more difficult to 
vote. Would you agree with me on that?
    Attorney General Holder. Well, the initial material we got 
from them did not have any statistical proof. We got a 
submission from them later on that indicated there were perhaps 
900 people who were dead who were on voter rolls, or something 
along those lines. That was then disputed by another South 
Carolina official.
    This is all a matter that is now before the court and will 
be ultimately decided by the court here in Washington, D.C.
    Mr. Johnson. And then as I stated earlier, the House 
Commerce-Justice-Science----
    Mr. Smith. [presiding.] The gentleman's time has expired.
    Mr. Johnson [continuing]. Funding to bring actions against 
States for their voter identification laws.
    And I will yield back the balance of my time, but I would 
like to make a unanimous consent request.
    Mr. Smith. Without objection. What document does the 
gentleman wish to enter into the record?
    Mr. Johnson. There are 10 letters of support for Attorney 
General Holder praising his leadership from the National 
Fraternal Order of Police; from Patricia Maisch, the Tucson 
shooting survivor; a letter from the Leadership Conference to 
Chairman Issa; a letter from Commissioner Ramsey to Chairman 
Issa; a letter from the National Action Network to Chairman 
Issa; a letter from the Leadership Conference to Speaker 
Boehner; a letter from the National Immigration Law Center to 
Speaker Boehner; a letter from the National Women's Law Center 
to Chairman Issa, a tricaucus letter from Representative 
Gonzalez, Representative Cleaver and Representative Chu.
    Mr. Smith. Without objection, all those----
    Mr. Johnson. Last but not least, a letter from the National 
Organization of Black Law Enforcement----
    Mr. Smith. Did you get these letters from the Attorney 
General himself? No, I am teasing.
    Mr. Smith. Without objection, all those letters will be 
made a part of the record.
    Mr. Johnson. Thank you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Johnson. And I yield back.
    Mr. Smith. The gentleman from Texas Mr. Poe is recognized 
for questions.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here, Attorney General. I want to thank 
your office for the cooperation they have had on the specific 
issue of human trafficking, the new scourge that is happening 
in the United States.
    A recent Pew study has come out and said that there are 
approximately 2 million ineligible voters in the United States. 
Of that 2 million, 1.8 million are dead people. I would assume 
you would agree that voter rolls, when verified that the folks 
on the rolls are dead, they should be purged in some manner. 
Would you agree with that or not?
    Attorney General Holder. Absolutely. I think the purging 
should occur. It just ought to be done consistent with Federal 
law.
    Mr. Poe. Your office, how many specific cases have you 
prosecuted or your office has prosecuted on voter fraud since 
you have been Attorney General.
    Attorney General Holder. I don't know what the number is. I 
know I prosecuted them myself when I was in the Public 
Integrity----
    Mr. Poe. Just when you have been Attorney General.
    Attorney General Holder. I don't know what the number is.
    Mr. Poe. Would the number be zero?
    Attorney General Holder. No. I think that we have had vote 
fraud cases I know that we have either settled through pleas--I 
am not sure if we have had trials, but I know that we have had 
cases where people have committed offenses where they made 
straw donations and other ways in which voter fraud was carried 
out. I know we have done those cases. I don't know what the 
numbers are.
    Mr. Poe. So that I know the exact number, because the 
information I have been given it is zero, so if you would 
provide me the actual number. I don't need the cases, just the 
number of cases that your office has prosecuted under section 8 
of the law. And let me know and the Chairman know the exact 
number, because, like I said, my information is there are none.
    Attorney General Holder. Well, I mean, our efforts to fight 
voter fraud, though, go beyond just section 8 of the NVRA. 
There are a whole range of other statutes that we use in those 
cases.
    Mr. Poe. I understand. I would like to know specifically 
section 8 prosecutions under your term as Attorney General.
    Attorney General Holder. We can wrap that into the larger--
--
    Mr. Poe. I am not asking for the other ones. Just to be 
specific, I am asking for the section 8 prosecutions by your 
office.
    Attorney General Holder. But just to be fair, to get a 
sense of what it is we are doing, as I said, we will give you 
that information, but as I said, I will give you a sense----
    Mr. Poe. You can give me more information if you wish, that 
is fine, just so section 8 is included in that. That would be 
great.
    Attorney General Holder. Sure.
    Mr. Poe. The Mexican Ambassador to the United States 
recently has made comments about Fast and Furious that Mexico 
was unaware of--quote, ``Mexico was never apprised how the 
operation would be designed and implemented''; talked about the 
fact that Fast and Furious has hurt the relationship between 
the United States and Mexico. I am not surprised that he would 
say something like this. We constantly talk, as we should, 
about the Americans that were killed in Fast and Furious, but 
there were apparently, according to the Mexican news reports, 
hundreds of Mexican nationals killed because of Fast and 
Furious.
    The last time you were here, you answered a question and 
said more people will probably die because of Fast and Furious. 
Do you know how many people in Mexico have been killed as a 
result of the United States helping to facilitate straw 
purchases of automatic weapons going down to Mexico? Do you 
know how many?
    Attorney General Holder. I don't know, but I would think 
that there have been some, and I know that, given the 64,000 
guns that have gone from the United States to Mexico, that 
Mexican citizens, Mexican law enforcement officers have lost 
their lives as a result of guns that started in the United 
States, but ended up in Mexico.
    Mr. Poe. How many of the guns have been recovered of the 
total number in Fast and Furious? You get different numbers. I 
have heard 1,200, I heard 2,000. How many guns have been 
recovered in Mexico that were the result of guns involved in 
the Fast and Furious operation?
    Attorney General Holder. I don't know that number.
    Mr. Poe. Any guess at all? I mean, that was the purpose, 
was it not, of Fast and Furious, to sort of keep up with the 
firearms when they go to Mexico, and see whether they were used 
in a crime scene, and then who the bad guys were? Wasn't that 
sort of the purpose, veiled purpose?
    Attorney General Holder. That was the stated purpose as it 
was in Wide Receiver and the other--the previous attempts at 
dealing with the sold guns from the United States to Mexico, 
none of which were ultimately successful, and all of which 
allowed guns to be inappropriately put into the stream of 
commerce.
    Mr. Poe. How many guns have been recovered on Fast and 
Furious?
    Attorney General Holder. I have heard different numbers on 
that as well, anywhere from 800 to 1,200. I just don't know. I 
think we start off with a number of about 2,000 that were put 
into--inappropriately put into the stream of commerce, and then 
the number that was recovered, I heard 800 to 1,200, but I 
don't know.
    Mr. Poe. What would America's reaction be if the roles were 
completely reversed; that if our neighbors, Mexico or Canada, 
they smuggled, facilitated the smuggling of automatic weapons 
into our country where Americans were killed and Mexican 
nationals killed? What would be our reaction to that as the 
head lawyer in the country?
    Attorney General Holder. Probably similar to what the 
Ambassador has said, though I do have to say that we maintain a 
good relationship with Mexico that operates on a whole bunch of 
levels. Certainly law enforcement is the one that I am most 
familiar with. I have a good relationship with the Attorney 
General in Mexico. We talk all the time. And we continue to 
work together on a variety of law enforcement projects and have 
not been deterred by the fact--the regrettable Fast and Furious 
episode. But I can understand the Mexican Ambassador's 
comments.
    Mr. Poe. What are we doing to wrap the operation--I am 
sorry, Mr. Chairman, I didn't realize.
    Mr. Smith. The gentleman's time has expired.
    Mr. Poe. From the South we should get more than 5 minutes. 
We talk slower.
    Mr. Smith. Why doesn't the gentleman from Texas ask a 
question that he would like the Attorney General to respond to 
in writing?
    Mr. Poe. I ask unanimous consent to submit--you mean ask 
the question or submit the question in writing?
    Mr. Smith. I suggest you ask the question you were planning 
to ask, and we will get the response later on.
    Mr. Poe. I will submit the numerous questions to the 
Attorney General, and he would submit back, if he would, to the 
Chairman. Thank you.
    Mr. Smith. Without objection.
    Thank you, Mr. Poe.
    The gentleman from Tennessee Mr. Cohen is recognized.
    Mr. Cohen. Thank you, Mr. Chairman. And I will talk fast 
even though I am from the South.
    Mr. Attorney General, we appreciate your coming before us. 
In October 2008, the Department of Justice approved the merger 
between Delta and Northwest Airlines. The Department of Justice 
issued a statement, you may not remember this, quote, ``The 
proposed merger between Delta and Northwest is likely to 
produce substantial and credible efficiencies that will benefit 
U.S. consumers and is not likely to substantially lessen 
competition,'' unquote.
    Unfortunately that forecast has, in many people's minds in 
Memphis in particular, proved to be grossly inaccurate. Many of 
the promises made by Delta in front of this Committee have been 
broken.
    As anybody in Memphis can attest, the price of flying out 
of this, quote/unquote, fortress hub is much, much, much higher 
than it is flying out of other cities. And you can fly to 
cities through Memphis at cheaper prices than you can from 
Memphis to X. If you go from another city through Memphis to 
the city, it is cheaper than Memphis to.
    This has caused the city the loss of conventions; the loss 
of businesses, who said, we left Memphis because the price of 
flight in and out was too great, so they move to Atlanta. A 
convention moved to Kansas City. Another group moved to Kansas 
City.
    The people in Memphis are very upset about this, and we 
have unreasonably high airfares. Memphis is not alone; 
Cincinnati lost their hub, and service has been cut in 
Minneapolis as well.
    Now that the merger in place, what type of enforcement 
mechanisms does your Department of Justice have to ensure 
competition or to try to get competition and break up what is 
in essence a monopoly.
    Attorney General Holder. Well, I think that we have been 
appropriately aggressive in our antitrust enforcement efforts. 
There are a number of cases that we have brought everything 
from e-books to the way in which telecommunications industry 
has tried to consolidate. And in those cases where we have not 
brought suit, we have extracted from the parties who have 
sought to join promises or concrete divestitures of assets so 
that we would maximize the chances that the consumer would 
benefit.
    I think we have focused appropriately on what the impact 
will be on consumers, and I think that the----
    Mr. Cohen. But in the airline industry have we done 
anything, because the airline industry has gotten to be 
basically three major carriers. They have divided up the middle 
cities, and the middle cities are hostages, they are company 
towns, and the people in the cities have to pay whatever they 
are charged. Can we do anything about that?
    Attorney General Holder. Well, I mean, there is a certain 
amount of consolidation that has happened in the industry that 
I think is necessary for the survival of those companies. But, 
for instance, you look at what Delta and US Air tried to do, a 
transaction involving LaGuardia Airport and National Airport 
here in Washington, D.C. We approved what they wanted to do in 
New York, and we have reserved decision on what they wanted to 
do here in Washington to see what the impact of these 
consolidated----
    Mr. Cohen. If I could interrupt you, because our timing is 
limited. Washington, Los Angeles, New York, the big cities have 
got competition. It is the middle-American cities that are 
getting the brunt of this. Memphis is one of them. What can you 
do about Memphis, Cincinnati, St. Louis, Pittsburgh?
    Attorney General Holder. Well, I mean, what we can always 
do is to examine what the impact of these mergers has been, and 
if we find anticompetitive operations in a particular city----
    Mr. Cohen. Well, then, can I ask you to look into Memphis 
and the situation there? Frontier Airlines came in; Delta came 
in, undercut them; Frontier left. US Air now is running 
Memphis, Washington. Delta is going to undercut them. Southwest 
is not looking to come in. We talked to Southwest. They said, 
if we come in, we are going to be undercut. That is monopoly.
    Attorney General Holder. I can't comment on the particulars 
because I am not aware of them, but to the extent that one 
entity tries to undercut another inappropriately by lowering 
its prices and driving that competitor out of the market only 
to draw the competitor out of the market and raise its prices 
once the competitor is gone, that is inappropriate under our 
antitrust laws, and that is the kind of thing that would have 
an impact on consumers and that we would aggressively pursue.
    Mr. Cohen. Well, let me ask you to look at the situation in 
Memphis. That is number one.
    Number two, in Memphis, too, and I think I have written you 
about this, grocery store business, Kroger has come in and 
taken over the market. They bought out Schnucks. Then Schnucks 
took Kroger's place--shops in southern Illinois. Schnucks has 
got an area of influence in southern Illinois they didn't have 
because they swapped stores with Kroger. Prices have gone up. 
There is not competition there.
    It is happening all over America. Business is finding ways 
to work with each other to create monopolistic practices and 
take advantage of consumers, and consumers are left off. It is 
what is happening.
    Income inequality, purchasing ability inequality, the 
middle class and consumer, they have got nowhere to go. The 
only hope and change they have got is with you and this 
Administration, otherwise big business is cutting them out. So 
I appreciate your looking into this monopolistic practices and 
looking after the consumer, which I know you want to.
    Attorney General Holder. Our focus is on the protection of 
consumers, and I think, as I said, that we have been 
aggressive. We put people to head that Division who share that 
attitude, and, as I said, I think they have done a good job.
    Mr. Cohen. Thank you, and I yield back the proverbial 
remainder of my time when I have none.
    Mr. Poe. [Presiding.] The gentleman's time has expired.
    The Chair recognizes the gentleman from Utah Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Thank you, Mr. Attorney General, for being here. I would 
like to focus my comments on Fast and Furious.
    You stated in previous testimony here today that you had 
read the six wiretap applications. I, too, have read those 
wiretap applications. I come to a conclusion that is totally 
different than your conclusions. That is but, I think, a sliver 
of the information that we are looking at where a reasonable 
person would only come to the conclusion that the seniormost 
people within the Department of Justice did indeed know that 
guns were walking, that those tactics were being used.
    I guess my question for you, Mr. Attorney General, those 
things are sealed, those wiretap applications. Nobody wants to 
impede an ongoing investigation or hamper a prosecution 
opportunity. My question for you today is would you be willing 
to make yourself personally available to myself and to Mr. 
Gowdy and, in the essence of fairness, Mr. Bobby Scott and Mike 
Quigley to come talk to you, sit down, and I want you to show 
me how you don't come to that conclusion, and I would like to 
show you why I think there is a preponderance of evidence that 
would lead one to believe that, yes, indeed, the Department of 
Justice did know about this. Is that fair? Could you make 
yourself available?
    Ms. Jackson Lee. Mr. Chairman, a parliamentary inquiry.
    Mr. Chaffetz. No, I--Mr. Chairman, please.
    Mr. Poe. She may inquire.
    Ms. Jackson Lee. Mr. Chairman, I know the Attorney General 
is about to answer, but is it appropriate for Members to refer 
to sealed documents in this Judiciary Committee room and 
suggest that the Attorney General makes a personal visit to 
Members on what is sealed and should not be provided during a 
criminal investigation?
    Mr. Chaffetz. I simply asked again, please, Mr. Chairman, 
this does not count toward my time. I am simply asking, there 
is a dispute here. This has been going on for a year and a 
half. Most Members on this side asked about Fast and Furious. 
We are trying to resolve this, get to the end of it. It is hard 
to do in 5 minutes. I am just asking for personal time to show 
you what we have seen and for you to share with us what you 
have seen.
    Ms. Jackson Lee. Mr. Chairman, I again refer, these are 
sealed documents. I am trying to understand is the gentleman 
wanting the Attorney General to speak to sealed documents that 
have been leaked and then discuss it with Members while there 
is a pending criminal investigation?
    Mr. Chaffetz. I am not asking----
    Mr. Poe. The gentleman will suspend. The gentleman will 
suspend. The contents of the sealed documents may not be 
discussed.
    The gentleman may have his time back and----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Poe [continuing]. The remaining time that was been 
allotted to the gentlelady from Texas.
    Mr. Chaffetz. Is that a reasonable request? Will you sit 
down with us and talk about this?
    Attorney General Holder. Well, I don't think that under the 
Federal law I have an ability to talk about, as the statute 
says, the content of the wiretap----
    Mr. Chaffetz. Would you be willing to sit with us and talk 
about all the other pieces of evidence that aren't sealed?
    Attorney General Holder. Well, I have sat down with you on 
eight separate occasions.
    Mr. Chaffetz. I am asking for more time to sit with you 
personally, more than just 5 minutes, and go through this in 
some depth. Give us 2 hours, two Members from the Democrats, 
two on the Republican side, and go through this.
    Attorney General Holder. You know, with all due respect, I 
give you 4 hours at a crack on eight separate occasions. I am 
not sure there is an awful lot more I have to say. But here is 
one point I will say. You and I have both read materials that 
senior people in the Justice Department, as they went through 
those data approval process, did not read. As we know----
    Mr. Chaffetz. Let me go on, please. So the answer is no? 
You are eating up my time, and I only have about 3\1/2\ minutes 
left. I would like more time. That is what I am asking for, and 
you are saying no.
    Attorney General Holder. But----
    Mr. Chaffetz. Let me share with you why I think this is 
imperative. Sunday, October 17, 11:07 p.m., Jason Weinstein 
sends an e-mail to James Trusty: Do you think we should try to 
have Lanny participate in a press when Fast and Furious and 
Laura's Tucson case are unsealed? It is a tricky case, given 
the number of guns that have walked, but it is a significant 
set of prosecutions.
    James Trusty sends back to Jason Weinstein, it is not going 
to be any big surprise that a bunch of U.S. guns are being used 
in Mexico, so I am not sure how much grief we get for guns 
walking. It may be more like finally there are going to be 
people who sent guns--they are going after the people who sent 
guns down there.
    Now, you claim with passion that nobody at the senior 
levels at the Department of Justice prior to the death of Brian 
Terry knew that guns were walking, and I got an e-mail from 
Jason Weinstein using the term ``guns walking.''
    Attorney General Holder. I think we went through this 
exercise before. That refers to Wide Receiver, not Fast and 
Furious.
    Mr. Chaffetz. That is not what the February 4th letter that 
was sent to the United States Congress said. It said that the 
ATF never uses those tactics, never.
    Attorney General Holder. We said----
    Mr. Chaffetz. And that is not true.
    Attorney General Holder. And we said that that letter was 
inaccurate, and it was ultimately withdrawn. But the e-mail 
that you just read, and this is important, that e-mail referred 
to Wide Receiver. It did not refer to Fast and Furious. That 
has to be noted for the record.
    Mr. Chaffetz. No, it doesn't. It says ``Fast and Furious.'' 
Do you think we should try to have Lanny participate in press 
when Fast and Furious and Laura's Tucson case are unsealed? It 
is specific to Fast and Furious. That is not true, Mr. Attorney 
General. I am happy to share it with you.
    I ask unanimous consent to give you some extra time to 
review.
    Attorney General Holder. That is fine. The Laura Tucson 
case refers to Wide Receiver.
    Mr. Chaffetz. It says ``Fast and Furious.'' We will let the 
media have it and play it out.
    Attorney General Holder. Laura Duffy was not involved--
Laura was not involved in Fast and Furious.
    Mr. Chaffetz. The e-mail says ``Fast and Furious,'' and you 
say it doesn't. I have got it in black and white.
    Did you personally read----
    Attorney General Holder. I have superior knowledge.
    Mr. Chaffetz. Did you personally read Speaker Boehner's 
letter spent to you on May 18, 2012?
    Attorney General Holder. Yes, I got that.
    Mr. Chaffetz. Did you read it?
    Attorney General Holder. Yes.
    Mr. Chaffetz. Have you personally responded to the Speaker?
    Attorney General Holder. The Deputy Attorney General 
responded.
    Mr. Chaffetz. So you delegated that to James Cole?
    Attorney General Holder. I didn't delegate it to him. We 
thought it was appropriate for him to respond.
    Mr. Chaffetz. You didn't think it was appropriate for you 
to respond?
    Attorney General Holder. No, but what I indicated in my 
opening statement and certainly willing to indicate right now, 
is that I am willing to personally engage with the four people 
who signed that letter and try to come to an accommodation so 
that we can get you the information that you need consistent 
with what I think is our need to protect ongoing 
investigations. I want to be as flexible as we can and, as you 
said, get to the----
    Mr. Chaffetz. I have a hard time buying that when you won't 
sit down with a guy like me----
    Mr. Poe. The gentleman's time has expired. The gentleman's 
time has expired.
    The Chair recognizes the gentleman from Puerto Rico Mr. 
Pierluisi.
    Mr. Pierluisi. Welcome back, Attorney General. I realize it 
has been a long hearing, and you say the eighth occasion on 
which you appear before us. As I stated before, the first thing 
I will say is that I have to commend your demeanor, your 
patience, your decorum in appearing before us and subjecting 
yourself sometimes to a process that I do not believe is fair. 
If anything, this Committee should always try to afford due 
process. And I just have to say that sometimes here you are 
interrupted in a way that is not deserving to the position you 
are holding. So I for one, I thank you.
    Now, as you probably expected, I want to complain a little 
bit. The familiar subject of my questioning is the Federal 
Government's response to drug-related violence in Puerto Rico 
and the neighboring U.S. Virgin Islands. The murder rate in 
Puerto Rico and the USVI is nearly six times the national 
average, and nearly three times higher than any State. Most of 
these homicides are linked to the cross-border trade in illegal 
drugs, which is primarily a Federal responsibility to combat.
    During your previous testimony, you stated that drug-
related violence in our Nation's Caribbean territories is a 
national security issue we have to confront. You also stated 
that Puerto Ricans are American citizens who deserve the 
protection of their government.
    I know you and your team have been working to address this 
problem. You and the heads of the DOJ's component agencies have 
always made yourselves available to talk to me despite your 
busy schedules, and I appreciate that. And there have been some 
major success stories in recent months, including yesterday's 
Federal-State operation which resulted in the arrest of dozens 
of our airline workers in Puerto Rico who were smuggling drugs 
on flights to the mainland U.S.
    Your men and women in Puerto Rico are doing terrific and 
courageous work. I hope you know that I recognize and respect 
that. But it is also clear to me and any reasonable observer 
that far more needs to be done. The CJS appropriations bill, 
which we approved recently this year, explicitly stated: ``the 
committee is aware that efforts by Federal law enforcement to 
reduce drug trafficking and associated violence in the 
southwest border region has affected trafficking routes and 
crime rates in the Caribbean. The committee expects the 
Attorney General to address these trends by allocating 
necessary resources to areas substantially affected by drug-
related violence and reporting back to the committee.''
    I wrote this very same week to the President asking him to 
direct ONDCP to prepare and publish a Caribbean border 
counternarcotics strategy, which would outline a Federal plan 
of action to address drug trafficking and related violence in 
Puerto Rico and the VI. ONDCP already does this for the 
southwest border and the northern border.
    So the first question I have is do you see any reason why 
ONDCP should not do the same for the Caribbean border?
    Attorney General Holder. I think that is actually a fair 
point, and it is consistent with what I testified to, I think, 
before your remarks that--my remarks that you referenced 
before. When one looks at the Caribbean, Puerto Rico in 
particular, I think we need to have a strategy. We have a task 
force, on Puerto Rico, that the Associate Attorney General is 
one of the cochairs of. I think to the extent that it is not 
explicit, that we should develop such a plan.
    Mr. Pierluisi. Thank you.
    My second question, and, Mr. Chairman, you know, I would 
like to be able to make my question and then get an answer even 
if my time expires. Quite a few of my fellow Members have had 
that courtesy. I hope you can extend it to me as well.
    Mr. Poe. The gentleman just ask the question.
    Mr. Pierluisi. Okay. The second question is, can you 
explain the concrete steps that DOJ has taken to strengthen its 
presence in Puerto Rico? Wouldn't it be appropriate for DOJ to 
increase the resources it devotes to the island even if it is 
only a temporary surge, just as the Federal Government did when 
there was a spike in violence on the U.S. side of the southwest 
border.
    I know we are living in an environment of constrained 
resources, but I am talking about prioritizing the limited 
resources you have and making sure they are being allocated to 
the areas where they are needed the most.
    By the way--and I have the stats--DEA has increased its 
manpower, but the FBI and ATF have not in recent years. 
Shouldn't you be acting with more of a sense of urgency in this 
area? Please, tell me why I should feel better about this than 
I do.
    Attorney General Holder. Yeah----
    Mr. Poe. The Attorney General will be brief.
    Attorney General Holder. Okay.
    Our law enforcement component's ability to develop 
recruitment and retention incentives for agents who are willing 
to--who are stationed in Puerto Rico, retention is a really--is 
a unique problem that we have in Puerto Rico. But I think the 
issue that you raise about surges is something that we are 
starting to embrace. Because we have seen--although we have 
seen historic drops in the crime rate, we have seen hot spots, 
for lack of a better term, around the country. And what we are 
now doing is developing a capacity to surge agents and 
resources, money at times, to help local law enforcement into 
those hot spots.
    We have done it in a couple of cities in the United States 
mainland. We plan on looking at other places that we will. And 
I think Puerto Rico, given the homicide rate, the violent crime 
rate that far outstrips what is the national norm, I think 
Puerto Rico would certainly be a candidate for such a surge.
    Mr. Pierluisi. Thank you so much.
    Mr. Poe. The gentleman's time has expired.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. And I thank you for 
your great service to the great State of Texas as a Congressman 
and as a judge.
    Mr. Attorney General, I want to ask you about a comment 
attributed to you and then a statement issued by the Department 
of Justice. In a New York Times interview in December of 2011, 
you said there is a desire to, quote, ``get at you'' because 
you, quote, ``consistently take progressive stands.'' Shortly 
after that interview, the Department issued a statement wherein 
it said your critics, and I will quote, your critics ``rightly 
view you as a progressive force.''
    The common theme in both of those statements is an apparent 
belief that you are targeted because you are, to use your term, 
progressive. So I want to be really clear with you, Mr. 
Attorney General. I am not a critic of yours because you 
consider yourself to be progressive. I am a critic because I 
don't think the Attorney General for the United States of 
America should have any political ideology whatsoever. You are 
the Attorney General for the entire country. Regardless of your 
political ideology or anyone else's political ideology, you are 
the Attorney General for everyone.
    You are a former judge. You are a former U.S. Attorney. You 
are currently the chief law enforcement official for the United 
States. I don't know what attracted you to the criminal justice 
system; I haven't had an opportunity to ask you. I can tell you 
what attracted me to it was the notion of working solely for a 
woman who is blindfolded and carries nothing with her except a 
set of scales and a sword--no political ideology, no agenda, 
just a set of scales and a sword. And it is important to me 
that she doesn't care about anyone's station in life and she 
doesn't care about their political ideology and she doesn't 
care whether they are Black, White, Brown, progressive, 
conservative. It is just about the equal application of the 
law.
    And further in that interview with the New York Times, you 
singled out my colleague from South Carolina, Senator Graham, 
as someone who had good faith in his criticisms toward you. So 
my question--and then you suggested that others are motivated 
by something more nefarious--bad faith, a desire to get at you, 
a desire to do damage to the President.
    So my question to you is this: Do you think it is possible 
to be motivated by good faith and still ask who the senior-
most-level officials within main Justice were who knew about 
the tactic of gun-walking prior to Brian Terry's death? Is it 
possible for me to ask that question and be motivated by good 
faith?
    Attorney General Holder. Sure. I would say, you know, let's 
ask, do you think John Ashcroft was a conservative?
    Mr. Gowdy. I don't know Mr. Ashcroft. I will tell you who I 
do know, Mr. Attorney General. I know the United States 
attorney for the district of South Carolina. He was appointed 
by President Obama. He is every bit as progressive as you say 
you are, if not more so. And not only have I not been a critic 
of his, I have been one of his biggest fans because you cannot 
tell what his political ideology is from the way he discharges 
his job. So I don't know John Ashcroft. I don't know you. I 
know Bill Nettles, I know the United States attorney.
    And you can shake your head when I say that, but the truth 
is, you are the one who said you were being targeted because 
you are progressive. And my point to you is, I would be asking 
the exact same questions about Fast and Furious whether you 
were John Ashcroft, whether you were Dan Lungren, whether you 
were Bob Goodlatte. I don't care about the political ideology 
of the U.S. Attorney or the Attorney General.
    Attorney General Holder. All I would say is this: The 
decisions that I have made in connection with anything that I 
have done in the Justice Department don't reflect my political 
ideology. They reflect my view of the facts, the law, and what 
my responsibility is as Attorney General of the United States.
    Mr. Gowdy. Well, then why did your department say that? Why 
did your department in December say that you were a target 
because you consistently take progressive stands? Do you think 
that is why I am asking you about Fast and Furious, because of 
your political ideology?
    Attorney General Holder. I have--I will accept that your 
question to me is one that is based in good faith. I am not 
going to say--I am not going to ignore reality and say that all 
of the attacks that have been directed at me have been those 
that are nonpolitical in nature or that have come in good 
faith. That is----
    Mr. Gowdy. Can I be motivated by good faith----
    Attorney General Holder [continuing]. Reality.
    Mr. Gowdy. Can I be motivated by good faith and still 
believe that you ought to have to show an ID to vote in South 
Carolina, just like you do to have to enter the Federal 
courthouse?
    Attorney General Holder. Absolutely. We can have a 
disagreement. You can operate in good faith and ask that 
question, as I can disagree with you in good faith and not have 
a political motivation behind my position.
    Mr. Gowdy. Well, Mr. Attorney General, you have a difficult 
job. But if you think that you are being singled out because of 
political ideology or race or any other characteristic or 
factor when it comes to Fast and Furious, you are sorely 
mistaken. I would be asking the exact same questions regardless 
of what party was in power.
    And, with that, I will yield back, Mr. Chairman.
    Mr. Poe. The gentleman's time has expired.
    The Chair recognizes the gentlewoman from California, Ms. 
Chu, for 5 minutes.
    Ms. Chu. Thank you, Mr. Chair.
    Attorney General Holder, before I begin my questions, I 
would like to take a moment to commend you for the progress 
that the Department has made on various issues. For instance, 
on intellectual property rights, you have made that a priority. 
It is very, very important for our economy. And I congratulate 
the Department of Justice on the groundbreaking case earlier 
this year where you charged seven individuals and two 
corporations for running an international organized criminal 
enterprise that was responsible for causing more than half a 
billion dollars in harm to copyright owners.
    And I also want to thank the Department for seeking to 
protect every American's right to vote. During 2011, the Civil 
Rights Division handled 27 new voting rights cases. And with 
176 bills introduced in Congress that are aimed at suppressing 
Americans' right to vote, you are doing incredibly important 
work.
    I also want to applaud you for changing the material that 
the FBI had been using in their counterterrorism materials that 
had many inflammatory statements about Islam and offensive 
stereotypes about Muslims. And, in fact, the FBI has conducted 
the review of this counterterrorism training material that 
indicated factually incorrect information.
    And, earlier, Congressmember Franks said that these were 
statements that had to do with political correctness, but, 
actually, I wanted to name some of the statements that were 
made in these training materials that were incorrect and, in 
fact, offensive. For instance, this one that was in the FBI 
manual: ``Never attempt to shake hands with an Asian.'' Or how 
about, ``Never stare at an Asian.'' I personally take offense 
at that, I must tell you. And how about this: ``The Arabic mind 
is swayed more by ideas than by facts.'' Or how about, 
``Traditional Muslim attire and growing facial hair is an 
indicator of extremism.'' I think those are statements that had 
to be removed from those manuals.
    And my question has to do with the fact that a generation 
of FBI agents and Joint Terrorism Task Force members have been 
trained with these biased materials. What is the Department 
doing to make sure that those that have been trained with those 
materials don't hold these kinds of stereotypes?
    Attorney General Holder. We have certainly removed those 
materials so that the training does not continue. And as people 
are updated in their training, we make clear to them that that 
material was inappropriately shared with them before. There are 
ongoing things that happen in the field offices to make sure 
that people don't rely on the kinds of things that you have 
just read into the record in their enforcement efforts. So it 
is an ongoing thing.
    We understand that there have been certain agents who have 
been exposed to this, and we understand that it is our 
responsibility to make sure that--that information was 
incorrect, not politically incorrect, but it was simply 
factually incorrect--that we make sure that they operate only 
on the basis of factually correct information.
    Ms. Chu. I truly appreciate that.
    And, actually, I also wanted to talk about another issue, 
and that is the NYPD and the Muslim community. In August 2011, 
the Associated Press published an investigative article that 
described intelligence gathering by the NYPD of the Muslim 
community in New York.
    Thirty-four Members of Congress and over 115 community and 
civil rights groups have requested that the Department of 
Justice open an investigation on this issue. Has the Department 
of Justice begun a formal investigation into this issue?
    Attorney General Holder. Well, we are aware of the 
allegations. We have received, as you indicate, several 
requests to investigate the NYPD, and we are in the process of 
reviewing these requests. We are very far along in what I will 
call this preliminary stage, and I expect to be getting 
something, a formal recommendation, fairly soon.
    Ms. Chu. I would appreciate that, because we want to make 
sure that innocent Americans aren't spied upon simply for 
eating at a restaurant or simply practicing their faith. And it 
is offensive to many. I always remember the fact that we had 
120,000 Japanese Americans that were taken off to concentration 
camps based on allegations of spying, and yet, in the end, not 
a single case of espionage was ever proven. So we want to make 
sure that the rights of innocent Americans are protected.
    Attorney General Holder. Okay. Yes. That is our objective, 
as well.
    Ms. Chu. Thank you.
    I yield back.
    Mr. Smith. [Presiding.] Thank you, Ms. Chu.
    The gentlewoman from Florida, Ms. Adams, is recognized for 
questions.
    Mrs. Adams. Thank you, Mr. Chairman.
    Hello, Attorney General. Good to see you again.
    Attorney General Holder. Good morning--good afternoon.
    Mrs. Adams. Earlier, when you asked about when you became 
aware of the tactics of Fast and Furious, I believe you said it 
was the early part of 2011?
    Attorney General Holder. Right.
    Mrs. Adams. And how long after Agent Terry's death were you 
made aware of the fact that one of those guns that walked was 
actually used to kill your agent?
    Attorney General Holder. I think roughly about the same 
time. I am not sure we have ever had a ballistic match in that 
regard, but I think I was made aware of the fact that guns 
found on the scene were from Fast and Furious. And I think that 
was about roughly the same time, sometime in February. I am not 
sure exactly when.
    Mrs. Adams. Would you consider that--because I am going to 
go back to your opening statement. You said during your opening 
statement about how you and your agency are working closely 
with all the agencies and that on the issues that apply to, 
whether it is the national security leaks, homeland security 
and all of that, you are working very closely.
    Yet you have an agent murdered, there are guns on the scene 
that come back to Fast and Furious, and it takes 1, 2 months 
before you are made aware of the fact that this has happened?
    Attorney General Holder. Well, you are talking about my 
personal knowledge.
    Mrs. Adams. Yes.
    Attorney General Holder. There were other people----
    Mrs. Adams. You are the Attorney General, are you not?
    Attorney General Holder. I will stipulate to that.
    Mrs. Adams. You are our chief law enforcement officer. You 
have a dead agent----
    Attorney General Holder. No, but I am saying that there 
were people in the Justice Department who were aware of the 
fact that those guns found on the scene were from Operation 
Fast and Furious. I personally did not become aware of that 
until February, but there were people in the Department, 
working with our DHS allies and people in local law enforcement 
and the FBI, who were aware of that fact, yes.
    I thought you were directing the question to just me as 
opposed to somebody else.
    Mrs. Adams. Well, you know, I have heard, I have listened 
all day long, and I listened the other day when you were here 
also, and every time when questions are posed about Fast and 
Furious, we always get a different timeline, or somewhat 
similar, or we have had a letter called back for inaccuracies 
months after it was delivered to us.
    So now we have you sit here and you tell us today in your 
opening statement how well your agencies are working together. 
Yet you have an agent who is murdered, and it takes a couple of 
months before you are made aware, as the Attorney General, that 
the weapons that were left and allowed to gun-walk were used 
during this homicide.
    So I go on to, if we have all of this going on--and I keep 
hearing you go back to, well, in the previous Administration we 
did this or they did that. You know, I don't really care what 
happened in the previous Administrations.
    What I care about is the fact that when I worked with 
agents in the previous Administration as a law enforcement 
officer, I knew that when they went to get a wiretap they had 
to produce the evidence of probable cause to their supervisor, 
who then had to sign off on that. So I listened today as you 
said, well, they just signed off on a summary. So are you 
telling me that your supervisors sign off on wiretaps based on 
summaries without looking at probable cause?
    Attorney General Holder. No, that is not what they do at 
all. They are satisfied, looking at the summaries that are 
prepared, that probable cause does in fact exist. But they do 
not review these things with an eye toward understanding the 
full panoply, the full scope of the underlying operation.
    They only make sure that, when we go to court, there is a 
sufficient basis for us to say that probable cause exists, that 
with regard to the telephone number that we want to get the 
wire on that we can say that that particular phone was involved 
in the commission of a crime, not the full extent of what 
Operation Fast and Furious was all about.
    Mrs. Adams. So, you know, you have covered a lot of 
different areas today. I am still waiting for an answer as to 
how so many thousands of guns walked. I have never been 
involved in an undercover operation that would allow such a 
thing to happen, and it is amazing to me that our own Attorney 
General's office is the one who allowed it to happen.
    But then you go on to say that you have----
    Attorney General Holder. I did not allow that to happen. 
And, in fact, as soon as I found out about it----
    Mrs. Adams. It was your agency. You have control over that 
agency, do you not?
    Attorney General Holder. As soon as I heard about it, I 
instructed that that policy, that practice had to stop.
    Mrs. Adams. After the death of a----
    Attorney General Holder. I was the first Attorney General 
to do that, and I did that.
    Mrs. Adams. You also talk about how your agency is working 
deliberatively on--and there was some information asked about 
immigration, and then you said, well, you know, we just need a 
comprehensive solution for immigration issues.
    Wouldn't that solution be that you and your agency actually 
enforce the laws on the books that we have today?
    Attorney General Holder. We do enforce the laws. We are 
more effective than any----
    Mrs. Adams. Well, I will just let you know that when I ask 
about criminal aliens that are released back into our----
    Mr. Watt. Regular order.
    Mrs. Adams. Because what we have is criminal aliens being 
released back into our communities because their home countries 
will not take them back. And I asked, well, do we ever file 
243(d) paperwork? And I was told no. None during this 
Administration have been attempted. So I have concerns when I 
ask you about our immigration laws being enforced.
    The other thing before I go is I want to tell you this----
    Mr. Smith. The gentlewoman's time has expired.
    Mrs. Adams. I will yield back.
    Mr. Smith. Okay. Thank you, Ms. Adams.
    The gentlewoman from California, Ms. Sanchez, is 
recognized.
    Mr. Deutch. I am next.
    Mr. Smith. I am sorry, the gentleman from Florida, Mr. 
Deutch, is recognized.
    Mr. Deutch. I knew it wasn't intentional. Thank you, Mr. 
Chairman.
    General Holder, thank you for joining us here today.
    As we are all aware, General Holder, a statewide purge of 
suspected ineligible voters is under way in Florida. Now, all 
voters benefit from voter roll maintenance efforts conducted 
with oversight, with accuracy, and with enough time to rectify 
mistakes. Unfortunately, the purge under way in Florida is 
nothing of the sort.
    A list of 182,000 suspected noncitizens has been compiled 
by Governor Scott's administration. This list is so riddled 
with mistakes that Governor Scott's own Secretary of State, 
Kurt Browning, objected to the list. Yet the risk was not 
reason enough for Governor Scott to stop.
    Cross-checking driver's license data with State voter files 
was guaranteed to result in mistakes--guaranteed. Many legal 
immigrants who have become citizens are still classified as 
noncitizens in the motor vehicle records. But it doesn't 
explain how a World War II veteran and Bronze Star winner from 
Davie, Florida, was listed. And it doesn't explain how a Fort 
Lauderdale small-business owner was listed. It doesn't explain 
the staggering rate of inaccuracy in just the initial stage of 
the purge.
    If the rate of inaccuracy in the initial 2,600 holds up for 
the remaining 180,000, then nearly 40,000 American citizens' 
voting rights are at risk.
    And let me be clear about one issue: Everyone here agrees 
we don't want noncitizens on the roll. I don't. General Holder, 
you don't. The issue is that this purge will remove thousands 
of legitimate voters. Why is there zero concern for these 
voters?
    Mr. Sensenbrenner earlier called this a model of due 
process. In fact, the letters going to voters say that they 
will be removed if they fail to respond within 30 days. The 
Governor believes that a failure to respond to a letter within 
30 days is reason enough to lose your right to vote even if you 
are a U.S. citizen. Maybe you moved. Maybe you don't read your 
mail. Maybe it got lost. Or maybe, General Holder, you are a 
different elderly veteran of World War II who received the 
letter the week that his wife died and threw it out because he 
didn't have time to deal with the preposterous assertion that 
he is not a United States citizen. That happened, Mr. Attorney 
General.
    Now, General Holder, I applauded you last Friday for 
requesting that Florida suspend this error-ridden, 
unaccountable, and illegal voter purge. The DOJ rightly pointed 
out that Federal voter laws prohibit voter purges within 90 
days of an election, thanks to a law passed 2 decades ago. 
Because the closer you get to an election, the less time you 
have to correct mistakes--mistakes like disenfranchising 
voters.
    Now, I am aware the Governor responded to you late last 
night in a letter that showcases his Administration's 
willingness to make up the law as they go along. And I know, 
Mr. Attorney General, your department will respond in detail in 
the coming days and will do everything necessary to compel 
Florida to comply with the law to prevent thousands of 
Floridians from being disenfranchised.
    But, finally, I want to give you a chance to respond to a 
letter sent to you yesterday by a colleague of mine. The letter 
reads that your department's interference in this purge proves 
that you are, quote, ``more concerned with protecting the re-
election prospects of the President than with upholding justice 
and enforcing the rule of law, that you are actively working to 
keep noncitizens who have committed a felony on our State's 
voter rolls.''
    General Holder, with 16 cases of voter fraud found in 
Florida of over 8 million votes cast in 2008, the assertion 
that voter fraud is an actually electoral strategy is 
preposterous and offensive. And it is condescending, because 
voter fraud would be a totally ineffective way to rig an 
election. It is rare because it is a felony that risks prison 
time and huge fines, and it is a totally illogical way to try 
to sway an election.
    You know what is an effective way to sway elections? 
Scrubbing thousands of legitimate voters off the rolls, 
eradicating voter registration drives, reducing early voting, 
and disenfranchising millions of seniors and impoverished 
Americans who lack government IDs. That is the tactic that 
Governor Scott and his ilk are using, not just in Florida but 
around the country.
    But maybe I am wrong, General Holder. Can you just answer 
quickly, is my Republican colleague right, Mr. Attorney 
General? Have I missed some grand conspiracy here?
    Attorney General Holder. I haven't seen the letter, but 
that is not what motivated our action or will continue to 
motivate the actions that we may have to take. I have not seen 
the response from the Governor or the Secretary of State in 
Florida. But I will assure you that we will make sure that the 
Federal law is enforced and that voter purges happen in a way 
that is consistent with the law.
    I share your view that we do not want to have people 
inappropriately voting, that we don't want to have voter rolls 
that contain people who should not have the right to vote. At 
the same time, we should engage in a process that does not put 
off the rolls people who have served their country as veterans, 
people who want to exercise that most fundamental of American 
rights.
    And so the notion that this is somehow a political ploy is 
inconsistent. One only has to look at the law, which is clear: 
90 days. It is very, very clear: 90 days.
    Mr. Deutch. And, in fact, General Holder, then, it is 
possible that as the highest law enforcement officer of the 
land that you actually have real concerns about American 
citizens being disenfranchised and that the United States 
Department of Justice, the U.S. Department of Justice actually 
cares about protecting the constitutional rights, the 
constitutional rights of American citizens that are now being 
threatened by this illegal voter purge in Florida. Isn't that 
correct?
    Attorney General Holder. That is right. At base, we have to 
enforce the law, a law that was designed by this Congress, or 
its predecessor, to protect the rights of American citizens. 
That is what our action is all about, to protect the rights of 
American citizens.
    Mr. Deutch. Thank you.
    And I yield back.
    Mr. Smith. The gentleman yields back his time.
    The gentleman from Arizona, Mr. Quayle, is recognized.
    Mr. Quayle. Thank you, Mr. Chairman.
    And thank you for being here, Mr. Attorney General.
    I want to get back to how the wiretap application is 
approved and the process that it is. You said that basically 
whoever it was just reads the summary, determines whether there 
is probable cause, and if there is probable cause, then they 
send it off to get approval by the courts. Is that basically 
what you are saying the process is?
    Attorney General Holder. Yeah, line lawyers in the Office 
of Enforcement Operations look at the affidavits, prepare a 
summary----
    Mr. Quayle. Okay.
    Attorney General Holder [continuing]. That is then reviewed 
by a Deputy Assistant Attorney General, and then it goes to----
    Mr. Quayle. So the Deputy Assistant is only looking for 
probable cause, is that what you are stating?
    Attorney General Holder. Right, to make sure there is a 
probable cause basis.
    Mr. Quayle. How is that true? Because under extensive 
requirements for Federal eavesdropping law, the Justice 
Department officials have a duty--a duty--to evaluate the law 
enforcement tactics that have been used in the investigation, 
why they aren't going to actually make it so that we can have a 
further investigation, and why you need to have wiretapping put 
into place.
    We have Title 18 U.S.C., section 2518(1)(c), says that the 
application needs a full and complete statement as to whether 
or not other investigative procedures have been tried and 
failed, or why they reasonably appear to be unlikely to succeed 
if they tried, or to be dangerous.
    Now, we put these sorts of safe measures in place because 
wiretaps are extraordinarily intrusive. And so, probable cause 
being the only basis for putting the application is just 
blatantly--it is just false. I mean, unless your Justice 
Department was not living up to what is actually statutorily 
required for an application.
    Attorney General Holder. What you are saying is absolutely 
right, that, in fact, there is that requirement. And if you 
look at the affidavits and the summaries, you will see that 
there is a statement by the person who does the affidavit and 
the person who prepares the summary that, in fact, other 
methods have been tried and have proven to be unsuccessful.
    Mr. Quayle. So you are saying that they did know about--
see, this is what I am trying to get at, is, did the Deputy 
U.S. Attorney who actually signed off on these wiretap 
applications, did they actually go through and understand what 
the tactics that were being used, since then they would 
actually know at the time of reviewing those, because you said 
that all they were looking at were the summaries and looking 
for probable cause, when, actually, they would have to be 
looking for the tactics, why they failed, and why you needed to 
have eavesdropping going forward. So that would mean that they 
would probably have that information a lot earlier than when 
you said earlier.
    Attorney General Holder. But you are looking at the tactics 
that were used in order to try to surveil people. All right, 
that is what you are looking for in terms of these tactics. It 
doesn't mean that you are looking at every tactic that was used 
as----
    Mr. Quayle. But it is part of the whole operation, though. 
But the investigation, for the operation of what they were 
trying to accomplish, you are using various different tactics. 
It is not just for surveilling, it is for the whole operation.
    Attorney General Holder. And what I am----
    Mr. Quayle. And so the tactics actually are part of the 
application, why they failed, why you need eavesdropping. So 
the Deputy Attorney actually knew about the tactics even though 
you have been saying all along that you didn't because you only 
had the summary and you were only looking for probable cause.
    Attorney General Holder. I have looked at these affidavits, 
I have looked at these summaries. There is nothing in those 
affidavits, as I have reviewed them, that indicates that gun-
walking was allowed. Let's get to the bottom line. And so I 
didn't see anything in there that would put on notice a person 
who was reviewing, either at the line level or at the Deputy 
Assistant Attorney General level, you would have knowledge of 
the fact that these inappropriate tactics were being used.
    Mr. Quayle. Are you saying in the summaries or in the whole 
affidavit?
    Attorney General Holder. In affidavit as well as----
    Mr. Quayle. In whole. So there were no comments about the 
tactics of gun-walking within the whole affidavit. Or are you 
talking about the summaries? Because there is a clear 
distinction between the two, and if you are saying they are 
only relying on the summaries and not the whole affidavit--but 
then you would have to go to--actually, then, would it be an 
untrue affidavit to go get wiretaps if they didn't include the 
gun-walking? I mean, is that lying to the court on the tactics 
that were being used during the operation?
    Attorney General Holder. I mean, we have to speak 
hypothetically here, okay, because we can't talk about the----
    Mr. Quayle. I understand that, but hypothetically--so, I 
mean, I am just trying to get down to what the process was, 
because it seems to be a little misleading from what you have 
said and what Mr. Breuer said in the past, that it was only for 
legal sufficiency or probable cause in this instance, from your 
perspective, when in actuality the statutes that govern this, 
especially with Federal eavesdropping, are much more strict and 
require much more proof that Federal eavesdropping and 
wiretapping is necessary to actually go through with it and get 
the court order to do it.
    Attorney General Holder. These statutes do not require the 
degree of specificity that you are implying. They do not 
require you to go and describe all of the things that you have 
done during the course of an investigation with the degree of 
specificity that you are implying. That is not accurate.
    Mr. Quayle. What degree of specificity do you think that I 
am implying here? I mean, you have to go through what the 
procedures are, what the tactics were. I mean, I am not trying 
to say that you need to put down every serial number of a 
certain shoe that somebody was wearing while they were 
surveilling somebody, but the basic gun-walking is a pretty big 
piece of the tactical operation in Operation Fast and Furious.
    Attorney General Holder. Well, again, I can't get into the 
content of the Fast and Furious wiretaps. I am prohibited from 
doing that under Federal law.
    But I can tell you that the notion that you are pushing, 
and you are pushing incorrectly, it does not require that 
degree of specificity, granularity, to appropriately put 
together an affidavit and a summary that can go to a Federal--
--
    Mr. Quayle. But it provides more than probable cause, which 
is what you were saying earlier, and it provides more than 
legal sufficiency, which was what Mr. Breuer was saying 
earlier.
    Mr. Smith. The gentleman's----
    Attorney General Holder. Are you going to ask me a 
question? 
    Mr. Quayle. My time has expired.
    Mr. Smith [continuing]. Time has expired.
    The gentlewoman from California, Ms. Sanchez, is 
recognized.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And, General Holder, thank you so much for joining us here 
today. I know that it is an important responsibility of your 
office to submit to this Committee's oversight, and I know that 
you would agree that this is an important role for our 
Committee to play. But it can't be easy--I feel your pain--to 
sit in front of us for such a lengthy period of time and answer 
questions about the many different areas under your purview.
    So I am going to apologize--I come toward the end--if some 
of my colleagues have already bent your ear on this topic, but 
I would be remiss if I didn't bring up the recent changes in 
the Department of Justice policies regarding the reimbursement 
to local governments under the State Criminal Alien Assistance 
Program, known more commonly as SCAAP.
    As I am sure you are aware, SCAAP permits States and 
localities to seek reimbursements for the cost of detaining 
deportable immigrants charged with a felony or two or more 
misdemeanors. Deportation is a Federal responsibility, and 
SCAAP is a program which acknowledges that our overburdened 
local law enforcement facilities shouldn't have to bear those 
costs without some kind of reimbursement or recompense from the 
Federal Government since it is the Federal Government's 
responsibility.
    Shortly after I was first sworn in as a Member of Congress 
some 10 years ago, local police officials came to me and 
explained how a change in the SCAAP funding rules was having a 
very profound effect on their budgets. And the 2003 SCAAP 
reinterpretation, in which States only receive reimbursement if 
a criminal alien is convicted of a felony or two misdemeanors 
and the arrest and the conviction occur in the same fiscal 
year, which is an odd and interesting requirement, has had 
tremendous repercussions throughout the law enforcement 
community, particularly in my State of California. In 
California, SCAAP reimbursement payments have declined from 
$220 million in fiscal year 2002, prior to the Department of 
Justice reinterpretation, down to $112 million in fiscal year 
2009.
    And for 10 years now in Congress, I have been working with 
colleagues on both sides of the aisle--it is a bipartisan 
issue--to try to help Justice recognize the need to return to 
the original congressional intent of this legislation. The 
police departments and sheriff's departments in my State are 
already having to do more in terms of deterring crime and 
protecting constituents with less. And this reinterpretation of 
the SCAAP reimbursement really hinders their ability to do 
that.
    They are trying under very difficult budget circumstances 
to do an incredible--and they are doing an incredible job. But, 
you know, they keep asking me, what is the Federal Government 
going to do about SCAAP reimbursement? And I would love to be 
able to tell them that the funds that they desperately need are 
going to be coming.
    But last month I was just dismayed to find that your 
department further reduced the reimbursements under the SCAAP 
program, which has the effect of only further increasing the 
pressure on local law enforcement and making their jobs that 
much harder. This change is not only going to--would only 
reimburse State and local law enforcement if they are holding a 
known inmate already in ICE's database.
    And I just want to bring your attention to a letter that I 
have from the California State Sheriffs' Association.
    And, Mr. Chairman, with your permission, I would like to 
enter it into the record.
    Mr. Smith. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Sanchez. It suggests that if your department had made 
this change in 2010, it would have reduced payments to 
California sheriffs by an additional $10 million. And that is 
already on top of the 50 percent cut from 2003 to 2009.
    And I just want to quote a section of this letter, since I 
think that the California State Sheriffs' Association 
summarizes this issue very accurately. They state, and I am 
quoting, ``The Federal Government must uphold its 
responsibility to the facilities that hold criminal aliens and 
not allow changes that would weaken the funding provided for 
SCAAP.''
    I hope that you will give this issue more thought and much 
more thought to the impact that this change is going to have on 
law enforcement communities across the Nation, not just to 
mention southern California. And I hope that you will 
reconsider this decision and consider rescinding it.
    I just wanted to make you aware of that issue. I will be 
following up with your office, and I hope that we can work 
together to try to ensure that local law enforcement entities 
will be properly reimbursed for the great job that they do in 
trying to protect the public safety.
    And I guess I will just allow you a brief comment and then 
yield back to the Chairman.
    Mr. Smith. Yeah, okay, thank you, Ms. Sanchez.
    The gentleman from Arkansas, Mr. Griffin, is recognized.
    Mr. Griffin. Thank you, Mr. Chairman.
    Thank you, Mr. Attorney General, for being here today.
    I want to ask you if you are familiar with the Olmstead 
case that deals with disability law. Are you----
    Attorney General Holder. Yes.
    Mr. Griffin. Are you prepared to speak about that today?
    Attorney General Holder. Well, I mean, I am not an expert 
on it, but----
    Mr. Griffin. Okay. Let me ask you a few questions about it.
    In my State, we have a number of homes, institutions, for 
the developmentally disabled. And around the country there have 
been a number of lawsuits against some of these homes alleging 
violations of civil rights. And, in some instances, these 
lawsuits are filed with the view that the Olmstead case 
contemplates a structure where the institutions sort of are 
phased out and that individuals who are disabled--
intellectually disabled, developmentally disabled--those 
individuals are moved into more community-based care. My State 
has been, in Arkansas, has been the subject of some of these 
lawsuits.
    First of all, I wanted to ask you, do you believe that the 
Olmstead case requires a movement away from institutional care 
for the developmentally disabled, or do you believe that these 
institutions can exist within the Olmstead framework?
    Attorney General Holder. As I said, I am not an expert on 
Olmstead. I am familiar with what the decision talked about 
and, you know, unnecessary institutionalization, how that 
clashes with the ADA. You are asking a question that I think is 
just beyond my----
    Mr. Griffin. Okay. Could I get something in writing on 
that?
    And let me continue a little bit. My concern is that those 
who are implementing--and I understand it is many levels below 
you. My concern is that some in the Civil Rights Division and 
the Special Litigation Section at DOJ are pursuing--and, to be 
fair, some of this litigation began in the last Administration, 
so this is an ongoing problem.
    But my concern is that there are some who read the Olmstead 
case as, if not requiring a move away from institutional care, 
at least somehow endorsing the move that those at DOJ have--
some at DOJ have advocated for. And my reading of--well, I 
think anyone's reading of the case, the actual case, 
demonstrates that that is not what the case contemplated; that 
the case made it clear that segregation of those with 
disabilities will not be tolerated but that institutions could 
be a part of the solution there.
    And, in fact, the opinion, the plurality opinion said, and 
I want to quote this to you, quote, ``Each disabled person is 
entitled to treatment in the most integrated setting possible 
for that person, recognizing on a case-by-case basis that that 
setting may be an institution.''
    And so, if you could get me some answers on that, that 
would be very important to me. You know, the lawsuit that was 
filed in Arkansas was eventually dismissed for lack of evidence 
presented by the Department of Justice. And, unfortunately, it 
cost the State of Arkansas and the development center that was 
involved $4.3 million to litigate that. And, in the end, it was 
dismissed for no evidence.
    I won't go into the details here, but I will just tell you, 
in a small State like ours and with an institution like this, 
$4.3 million was a significant sum of money. And, in fact, 
timber had to be sold, mineral rights had to be sold, et 
cetera, to help fund this litigation, which was then dismissed 
because DOJ had no evidence, or did not have sufficient 
evidence.
    So if you could get me just your views on that, I would 
very much appreciate it. And I thank you for being here today 
and listening.
    Attorney General Holder. Yeah, I would be glad to do that. 
I think that the underlying material that you have shared with 
regard to the disposition of those two cases is accurate. And 
so what I will endeavor to do is to respond to the questions 
that you have put to me, and I apologize for not being able to 
answer, based on that correct factual assertion that you have 
made.
    Mr. Griffin. Thank you, sir.
    Mr. Smith. Thank you, Mr. Griffin.
    The gentleman from Florida, Mr. Ross, is recognized.
    Mr. Ross. Thank you, Mr. Chairman.
    And, Mr. Attorney General, thank you for being here. I 
guess the benefit of having me question is you is I may be the 
last one. Thank you for your patience today.
    I want to ask you a couple of questions. The House 
Committee on Oversight did receive six wiretap applications 
that it reviewed. It is that Committee's contention that those 
applications contained detailed information about Fast and 
Furious and gun-walking.
    Now, it is my understanding you have reviewed those 
applications since your last testimony. Is it my understanding 
that you take issue as to what these applications actually 
detail as to whether Fast and Furious existed or whether there 
was any gun-walking?
    Attorney General Holder. Yeah, I mean, what I would do, 
again, because I can't talk about the contents, I would align 
myself with the letter that----
    Mr. Ross. Is that James Cole's letter?
    Attorney General Holder. No, the letter that Congressman 
Cummings set out----
    Mr. Ross. Okay.
    Attorney General Holder.--I guess a couple of days or so 
ago, as he went through his analysis of that same material. I 
think that his perspective is the correct one, as opposed to 
what Chairman Issa----
    Mr. Ross. And since then, my understanding is there was a 
letter January 27th of this year to Chairman Issa from Deputy 
Attorney General James Cole that indicated that changes had 
been made. Two of those changes included the Department of 
Justice has changed its way of response to congressional 
inquiries, and it has also changed the internal process for 
wiretap reviews.
    In fact, your office has tripled the number of attorneys 
now reviewing wiretaps; is that correct?
    Attorney General Holder. That is correct.
    Mr. Ross. Is that an indication that what was done before 
was done inadequately and inappropriately?
    Attorney General Holder. No, it was actually in response to 
office visits that I was making where people were saying it was 
taking too long for them to make requests in the field and to 
get them processed in Washington and get the approvals back 
into the----
    Mr. Ross. So it has nothing to do with another level of 
review to make sure as to the accuracy of the content?
    Attorney General Holder. One of the changes actually does, 
when we now require somebody in the field, a supervisor, to 
look at the affidavit and the application that is sent to 
Washington. We now require a supervisor to look at that. That 
was not a requirement before. And that is to try to make sure 
that we have better accuracy.
    Mr. Ross. And, as I understand it, according to--on 
Tuesday, you have a spokeswoman, Tracy Schmaler, who issued a 
statement that says, ``The review process for wiretap 
applications is limited and a specific assessment of whether a 
legal basis exists to support a surveillance request. The 
review process is not an approval of an operation.'' I am sure 
you agree with that.
    So the sufficiency of it, then, has nothing to do with what 
may be alleged in there. For example, hypothetically, if there 
was a human trafficking operation going on and the wiretap was 
being requested for that, at what point do you just not look at 
the legal sufficiency of whether the requirement is met for the 
wiretap? At what point do you do something to stop the actual 
operation that is being asserted in there?
    Attorney General Holder. Well, I mean, when you get these 
affidavits, they are pretty broad-ranging. They describe in 
pretty good detail what is going on in an operation. But they 
don't go into all of the--as I was explaining to go Mr. Quayle, 
they don't go into the nitty-gritty of everything that is going 
on in connection with an investigation.
    If, for instance, an affidavit did contain--and we are 
talking totally hypothetically here----
    Mr. Ross. Right.
    Attorney General Holder [continuing]. If an affidavit did 
contain some indication that trafficking was going on, that 
young girls were being tortured or something, or that guns were 
being walked----
    Mr. Ross. Right. What I am getting at is, we now have in 
place a process in reviewing these wiretap applications that 
will prevent another Fast and Furious; is that correct?
    Attorney General Holder. I think we do with regard to that 
supervisory level. This is always assuming that the people who 
are working on the affidavits are sharing all of the 
information.
    But it is not--but we shouldn't have that on the basis of 
just wiretaps. I mean, given the policy pronouncements that I 
have made and the changes that I have made, I think that is the 
primary reason why we should not have a repeat of Fast and 
Furious.
    Mr. Ross. And believe me, I would love to spend more time 
on that issue. I am sure you have had enough entertainment on 
that one. But what I would like to address with you is 
something that is near and dear to my State of Florida.
    Is it your opinion that you feel that deceased people 
should vote?
    Attorney General Holder. Obviously not.
    Mr. Ross. And illegal aliens should not vote either?
    Attorney General Holder. No, but veterans should be able 
to.
    Mr. Ross. I couldn't agree more, so long as they are, you 
know, eligible to vote.
    But when my State, in furtherance of its obligations to 
make sure that we have an adequate and sanctified voting 
process, 9 months ago requested from the Department of Homeland 
Security the citizen database and yet receives not only a 
``no'' but no response, and then today when they are trying to 
do what is necessary to make sure that the sanctity of the 
voting process is preserved and appropriate, the Department of 
Justice stonewalls and said, ``Sorry, you are within 90 days, 
and therefore the Voting Rights Act applies and you can't do 
it.''
    So what is my State supposed to do when DHS and DOJ does 
not cooperate with them in the furtherance of their obligation?
    Attorney General Holder. Well, I can't speak to what DHS 
did, but I will say this about that DHS database. It does not 
contain people who were born in the United States, so it is not 
going to be a cure-all even if----
    Mr. Ross. But why would they refuse to give it? And now 
they have to go to the motor vehicle rolls to find out, to do 
their job. I mean, they had better tools with that database 
than what they have now with their own internal tools.
    Attorney General Holder. Well, I mean, I don't know why 
they didn't. But I can say that the database itself would not 
be adequate for the kind of purging that is sought by the State 
of Florida, if it had been provided.
    Mr. Ross. And there is no reason they should not have--DHS 
should not have--they should have released it to----
    Attorney General Holder. I don't know what the basis was 
for that determination by DHS.
    I do know and I am concerned about the numbers of people 
who I have heard have been inappropriately purged from the 
voter rolls who are citizens who have voted in the past and 
who, for whatever reason, got those letters.
    Mr. Ross. Thank you.
    I yield back.
    Mr. Smith. Thank you, Mr. Ross.
    Mr. Attorney General, thank you for your testimony today.
    Ms. Jackson Lee. Mr. Chairman? I have one unanimous 
consent, please.
    Mr. Smith. The gentlewoman from Texas, Ms. Jackson Lee, is 
recognized for a unanimous consent----
    Ms. Jackson Lee. I thank you.
    It is a clarification regarding an e-mail sent by Mr. Jason 
Weinstein. This is his testimony regarding an e-mail referred 
to by the gentleman from Utah. The e-mail referred to the Wide 
Receiver, and the testimony that I am submitting indicates this 
statement: ``When I say it is a tricky case given the number of 
guns that have walked, I am talking exclusively about Wide 
Receiver.''
    I ask unanimous consent to submit this testimony into the 
record.
    Mr. Smith. Without objection, the testimony will be made a 
part of the record.*
---------------------------------------------------------------------------
    *The information referred to was not received by the Committee at 
the time this hearing record was printed.
---------------------------------------------------------------------------
    Mr. Attorney General, thank you again for your testimony.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions to the Attorney General. 
And we hope he will be timely in his response.
    This hearing is adjourned.
    Attorney General Holder. Thank you.
    [Whereupon, at 1:21 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material submitted by the Honorable Darrell Issa, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                                <F-dash>

 Material submitted by the Honorable Henry C. ``Hank'' Johnson, Jr., a 
   Representative in Congress from the State of Georgia, and Member, 
                       Committee on the Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                <F-dash>

Post-Hearing Questions submitted to the Honorable Eric H. Holder, Jr., 
             Attorney General, U.S. Department of Justice*
---------------------------------------------------------------------------
    *The Committee had not received a response to its questions at the 
time this hearing record was printed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
